<html>
<title> - CHALLENGES AND OPPORTUNITIES IN THE NASA FISCAL YEAR 2011 BUDGET PROPOSAL</title>
<body><pre>[Senate Hearing 111-863]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-863
 
                  CHALLENGES AND OPPORTUNITIES IN THE 
                 NASA FISCAL YEAR 2011 BUDGET PROPOSAL 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

64-486 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
MARK WARNER, Virginia



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 2010................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Vitter......................................     4
    Prepared statement...........................................     6
Statement of Senator LeMieux.....................................    31

                               Witnesses

Bolden, Jr., Hon. Charles F., Administrator, National Aeronautics 
  and Space Administration.......................................     7
    Prepared statement...........................................     9
Gibson, Captain Robert ``Hoot'', USN (Ret.) and Former NASA 
  Astronaut......................................................    38
    Prepared statement...........................................    40
O'Brien, Miles, Journalist and Host, ``This Week in Space''......    43
    Prepared statement...........................................    45
Snyder, Michael J., Aerospace Engineer...........................    47
    Prepared statement...........................................    49
Young, A. Thomas, Former Director, NASA Goddard Space Flight 
  Center and President and Chief Operating Officer, Martin 
  Marietta Corporation...........................................    52
    Prepared statement...........................................    53

                                Appendix

Rockefeller IV, Hon. John D., U.S. Senator from West Virginia, 
  prepared statement.............................................    61
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas, prepared 
  statement......................................................    61


   CHALLENGES AND OPPORTUNITIES IN THE NASA FISCAL YEAR 2011 BUDGET 
                                PROPOSAL

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. The meeting will come to order.
    Thank you all for being here. We have an important subject 
to discuss this afternoon.
    Senator Vitter, thanks. Thanks for being here.
    I'm going to make some opening comments. Senator Vitter 
will, as well. And then we'll hear from the first panel, which 
is General Bolden, and then we will invite up our second panel.
    We have had quite a discussion about the future of our 
Nation's space program, and it all started with the new 
Administration impaneling a very prestigious blue ribbon panel, 
the Augustine Commission, headed by a former space expert and 
former CEO, Norm Augustine. And after that--it was such a 
comprehensive report--many of us urged the White House, as they 
started to develop their budget, to fund NASA at the level that 
the Augustine Commission said. Essentially, if you wanted to 
have a robust space program, other than the existing budget, 
you would have to have a fairly significant increase in 
funding.
    Well, the White House decided a significant increase in 
funding, that they would recommend to the Congress--$6 billion 
over 5 years--and that, in this budgetary environment, is no 
small matter. But, it was only half of what the Augustine 
Commission was recommending. And over and over, as I shared 
with the White House staff and with the President as well, that 
there's only one person that can lead the space program, and 
that is the President, and that the President--who I know, 
personally, to be a space fan, a space aficionado--would have 
to make that declaration of support.
    And what happened was that, instead of a declaration of 
support, the NASA budget, which has a lot of very forward-
thinking and cutting-edge ideas were rolled out just as part of 
the regular budgetary message. In the process, it ended up, in 
some cases, being misinterpreted, in other cases, giving a 
false impression, and in other cases, became overlooked as part 
of the President's budget.
    Now, there's a lot that's good in this budget, from this 
Senator's perspective. We're seeing increases in aeronautics 
and science and Earth observation. The extension of the 
International Space Station at least to the year 2020 was an 
obvious one, but, heretofore, NASA budgets said that the 
funding for the ISS was going to cutoff in 2015. And there is, 
in this budget, an emphasis on encouraging science and 
technology, engineering and math, and that is especially 
important.
    But, here's the problem. Because the President did not make 
the declaration himself, and with the declaration that the 
Constellation program was going to be terminated, and with the 
angst that is already out there among the NASA family because 
of the layoffs that are anticipated--anticipated because of 
budgetary decisions that were made 6 and 7 years ago so that a 
new rocket was not ready by the time that the Space Shuttle was 
shut down and, therefore, there were going to be layoffs--you 
add the angst to a statement that the Constellation program is 
going to be killed, and add to that that it was rolled out in a 
budget message without the President declaring it, and what did 
it give? It gave the perception that the President was killing 
the manned space program.
    Now, the problem is that we live in the world of 
perception, and if the substance is different from the 
perception, then we've got to straighten it out. And where the 
perception is substance, if we disagree with the substance, 
then we have to change it.
    And so, I remind you that the President proposes and the 
Congress disposes. And so, what we're going to start, in the 
process of understanding the NASA budget that is presented by 
the Administration--and, in the process, we hope--and this is 
just a first step--to clear up the perception so that the clear 
declaration of the President's vision for space is there, and 
that the American people understand it. And the President, 
either himself or through his Administration--through his 
Administrator--needs to clearly state what the goal is.
    Now, it's pretty obvious that the goal that we all have 
talked about for some period of time, since we went to the Moon 
over 40 years ago, is to go to Mars. The question is, ``How do 
we do that? How do we develop the architecture, the technology, 
the way stations, the benchmarks? How do we do that?''
    And so, we should develop the technology in pursuit of that 
goal, not the other way around, that you develop technology and 
then you set a goal. As the saying goes, ``No wind is a good 
wind unless you know where the harbor is.'' Or, as that great 
American philosopher stated--Yogi Berra--``You've got to be 
very careful if you don't know where you're going, because you 
might not get there.''
    The hope is that we could provide more efficient access to 
low-Earth orbit while freeing NASA to explore the heavens--the 
Moon, the asteroids, Mars. But, this budget doesn't hold up the 
second half of that bargain, because by eliminating the plans 
for a heavy lift vehicle and a spacecraft capable of excursions 
below low-Earth orbit, the U.S., this Senator fears, is going 
to be on the sidelines while other countries continue to make 
incremental progress toward destinations like the Moon.
    So, what I am hopeful for is--from the President, the White 
House, or someone--that we are going to get a bold statement of 
vision and a declaration of the ultimate destination of our 
space program, and that is Mars. And that vision should support 
manned spaceflight beyond low-Earth orbit, and that destination 
should be on the horizon. And then we can develop the 
technology for getting to that destination.
    And once the President has made his vision abundantly 
clear, it should then be left to the NASA Administrator, 
working with the Congress, to make the detailed and technical 
decisions with the funding that we would assist NASA by 
authorizing and appropriating, in order to achieve that vision. 
And it's in that spirit that this Senator thinks that we need 
the continued testing of a booster as a technology testbed, a 
robust heavy-lift vehicle program and the continued development 
of spacecraft for the missions beyond low-Earth orbit. And we 
should accomplish these things in concert with some of the 
other more positive items that are in this proposed 
Administration's budget.
    Technology research and development is well supported in 
this budget by advancing technologies such as the on-orbit 
refueling, the aerocapture techniques, the energy from space, 
and in-space propulsion. It will enable more efficient, safer, 
and faster missions throughout the solar system. But, the 
effort should focus on technologies which make simply getting 
off the pad easier.
    And one of the concerns I have, Mr. Administrator, that I 
will ask you about, is, as you break down your budget, you've 
got about $7.8 billion over 5 years for developing 
technologies, and you've got 3.1--less than half that amount--
$3.1 billion over 5 years for the development of heavy lift. 
And in your remarks, I would appreciate it if you would explain 
that, because we ought to be doing both at the same time, and 
we have to get lift to get up and do these technology 
developments like on-orbit refueling.
    If you recall the giant Saturn V rocket that carried the 
folks to the Moon, it was powered by those massive F-1 engines 
capable of producing over a million and a half pounds of 
thrust. Well, we've not had an engine of its capability in 
nearly four decades, and it's time that we initiate a program 
to develop a new, modern, liquid hydrocarbon engine that can 
power future launch vehicles. And we're going to have testimony 
from someone who knows something about propulsion technology--
Captain Gibson--in a few minutes.
    This effort will serve to mature technologies, which will 
benefit not only our civil space program, but our national 
security space enterprise, and the commercial sector, as well.
    Now, on the commercial sector, I clearly support the vision 
of eventually passing to them the responsibility of going to 
and from LEO, but, until that time, there are a bunch of us 
that have three concerns:
    First, we need to ensure that we're not putting all of our 
eggs in one basket. And we can avoid this by ensuring that we 
have multiple competitors from both established and 
entrepreneurial companies competing with not only new, 
innovative designs, but with proven vehicles, as well. And so, 
that competition will ensure, as it moves forward--and some of 
the inevitable problems arise--that we will have some solid 
winners.
    And my second concern is that the shift to commercial 
spaceflight cannot come at the expense of astronaut safety. I 
bring to this committee today the shared concerns of Senator 
Mikulski and Senator Shelby, our two counterparts on the 
Appropriations Subcommittee, particularly with regard to 
safety. And the three of us have talked about this. And so, as 
these companies compete, they should expect to be held to the 
standards equal to those of existing government programs for 
human safety. And I also urge NASA to do its part by providing 
the commercial sector with the human rating standards to which 
the commercial sector must adhere, and to give them those 
standards as soon as possible.
    And third, we simply must do right by the men and women who 
have made this space program great. We're entering a period of 
transition. There's a great deal of angst out there. We're at 
risk of losing skills and the corporate knowledge of those 
workers, and that knowledge having been acquired over five 
decades. And if the entrepreneurial endeavors are to receive 
billions of dollars in the years ahead, I encourage them to 
remember the responsibility that comes with that funding when 
they're making workforce decisions.
    And so, Mr. Commercial Operators, I'm putting you on notice 
that, as you start to ramp up, you've got to look at this 
incredible talented workforce that may be out of a job. This is 
a time of great change and challenge for our existing 
workforce, and the commercial sector ought to be aware of this.
    Now, it is clear that this budget carries forward the 
decision to retire the Shuttle fleet by the end of this year, a 
decision that was made in the previous administration. A 
significant upheaval in this workforce related to the Shuttle 
retirement is going to occur. But, the massive loss of jobs is 
now exacerbated by the perception of the cancellation of 
Constellation and all the programs under it. And so, by 
continuing with certain R&D elements, such as testing of a test 
vehicle, of R&D for heavy lift, and the development of vehicles 
for deep space travel, we can put the workforce to greater use 
during this time of transition.
    And so, today's hearing is going to allow us to start a 
critical examination of this budget request and to formulating 
an appropriate congressional response. Again, I can tell you 
that I have never seen the appropriators and the authorizers 
unified, as we are.
    And with that, let me stop, and let me turn to my Ranking 
Member, Senator Vitter.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you very much, Mr. Chairman.
    And thanks, to all our witnesses, starting with 
Administrator Bolden.
    I'm just sorry, quite frankly, in terms of this hearing, 
that we're not going to hear from those who I suspect are the 
true lead architects of this very radical budget proposal, 
including Deputy Administrator Garver, and I'd ask, Mr. 
Chairman, that we continue this discussion and specifically 
hear from her and/or others who claim true original authorship 
of this, so we can question them directly.
    Let me say, as a sidenote, there has been wide speculation 
that, at some point in this Administration, the Deputy 
Administrator would be up for the Administrator's leadership 
position, and I can tell you, based on this budget, I will be a 
strong, fierce, and active opponent of that, should that be 
proposed.
    You can tell I'm a little bit concerned about this budget, 
so let me explain why by focusing on five points:
    First, I absolutely believe that this budget and the vision 
it represents would end our human spaceflight program as we 
know it and would surrender, at least for our lifetime, perhaps 
forever, our world leadership in the area. In so doing, I 
believe we would lose all of the enormous benefits of the 
technological advances that go along with all of that.
    Second, I believe it does this because it cancels all major 
existing human spaceflight programs, not only ending Shuttle, 
but completely canceling its replacement, the Constellation 
program, and replaces it with little more than a hope and a 
prayer that commercial providers will eventually pick up the 
slack. I don't think there is any realistic hope that can be 
done on a reasonable timeline. I'd also point out that this 
radical vision, this radical departure from all previous NASA 
plans under any administration, bears no relation to anything 
laid out clearly in the Augustine Commission reports, so I'm 
not really sure why we went through that whole exercise.
    Third, I believe this budget, as the Chairman very 
correctly noted, is a budget without a mission. Our greatest 
accomplishments in human spaceflight were gained because 
President Kennedy said, ``We will land a man on the Moon and 
return him safely to Earth by the end of this decade.'' 
President Kennedy didn't say, ``We're going to spend several 
billion dollars and do some really neat R&D.'' He said, ``We're 
going to land a man on the Moon. We're going to return him 
safely to Earth within this decade.'' It's a big difference. 
And the mission this budget lays out is more like my second 
statement, which is no mission at all. You don't accomplish 
great things without a clearly defined mission, and this budget 
has no clearly defined mission.
    Fourth, what does this do to the employment gap that we've 
all said we're very concerned about, including you, Mr. 
Administrator? I'll tell you what it does to it. In terms of 
employment within the entire industry, in my opinion, it 
absolutely expands the gap. I don't believe there's any 
possibility that we will be able to ramp up, depending on the 
commercial sector alone, in less time than our previous 
Constellation plans laid out. So, it increases that gap. I 
can't tell you how many years, but it increases it.
    In terms of the gap, regarding the NASA family--the folks 
within NASA, within NASA programs like Constellation--it 
increases the gap. It increases the gap to infinity. It says, 
``There's no gap anymore; we just fall off a cliff.'' And I 
think that is enormously detrimental to the NASA family and the 
long-term capability of NASA.
    Fifth, I want to focus on that wonderful workforce. Those 
folks have been very, very patient, waiting for the signal from 
this Administration, particularly concerning the next 
generation and the gap. Well, I'm afraid they just got it, and 
the message they have heard--not because of perception, but 
because of reality--the message they have heard loud and clear 
is what I just said. Their gap didn't just expand, their gap 
expanded to infinity if this budget were passed.
    And all I say to that is, I certainly want to offer a 
completely different message. I will fight, with every ounce of 
energy I have, to defeat this budget or anything like it, to 
fundamentally change it. I want to give the NASA family out 
there some hope of doing that. I believe there is great 
bipartisan support for that effort, as Senator Nelson laid out, 
including folks on this committee and including folks on the 
appropriate appropriations subcommittee.
    So, those are my comments. I look forward to our 
discussion.
    [The prepared statement of Senator Vitter follows:]

Prepared Statement of Hon. David B. Vitter, U.S. Senator from Louisiana
    I want to thank the Chairman for scheduling this important hearing. 
NASA is at a critical stage in its history and I believe that, because 
of the Administration's proposed radical new direction for NASA 
contained in this budget, the very lifeblood and continued relevance of 
our Nation's proud and pioneering space program hangs in the balance.
    Mr. Bolden, I join my colleagues in welcoming you here today. I 
realize that upon becoming NASA Administrator, you inherited an agency 
and space program in flux and fraught with uncertainties about its 
future role, missions, and goals. And while I disagree wholeheartedly 
with the new direction you wish to take NASA in with this budget, I 
realize the difficulty of the position you were put in and the 
decisions you have to make and have no doubt that you want the best for 
our space program, and I thank you again for your service.
    I would also like to welcome our other witnesses, Capt. Gibson, Mr. 
Snyder, Mr. O'Brien, and Mr. Young. I look forward to hearing your 
testimony and to you sharing your valuable experience and expertise on 
the subject of human spaceflight, and I thank all of you for taking the 
time to appear here before this committee today.
    I continue to believe that the space program represents one of the 
best uses of taxpayer's dollars, because it is an investment that we 
can expect will return even greater value to our economy and bring 
scientific, medical and other benefits that can improve the lives of 
everyone. However, the FY 2011 Budget Request represents a radical and 
I believe misguided departure in the way NASA conducts space 
exploration, specifically in the area of human spaceflight.
    The Administration's proposal to cancel the Constellation Program--
after more than $10 billion invested in its development and so soon 
after the recent successful test flight of the first Ares I rocket--and 
to rely instead solely on untested and unproven ``commercial'' 
providers with no firm timetable on when they could deliver a safe, 
reliable launch vehicle and crew vehicle is a most troubling 
development. I believe this proposed new path is both irresponsible and 
far too risky, and places our astronauts, our space program, and our 
Nation's role as the world's leader in space exploration and 
technological development in serious jeopardy.
    I also believe that investing billions of dollars in technology 
development, as this budget proposes, without any clear vision, 
mission, or target date for achieving them is counterproductive and 
contrary to the way NASA has done business and been driven to reach the 
monumental and awe-inspiring achievements it has over the past 50 
years. Furthermore, I believe that the lack of a clear mission and 
vision, which the Constellation Program provided, renders the proposed 
increase for science education funding ineffective, as I firmly believe 
that this proposed new path for NASA's human spaceflight program will 
not and cannot inspire America's youth to study and choose careers in 
math, engineering, and other sciences. Only a clearly defined mission 
and vision for our space program can provide our children with the 
necessary inspiration and enthusiasm to themselves reach for the stars.
    The proposed new path for NASA contained in this budget also 
troubles me because we have a highly skilled and dedicated workforce 
that makes U.S. human spaceflight happen, and we must not risk losing 
that workforce, and seeing them forced to permanently leave the very 
kinds of jobs that can most directly serve to benefit the country and 
our economy, especially in these troubled economic times. Literally 
tens of thousands of jobs are on the line here, and with the impending 
retirement of the space shuttle, the last thing this valuable workforce 
could afford is the cancellation of the system designed to replace it, 
and the uncertainty, confusion, and frustration these hardworking 
Americans and their families are now enduring saddens me greatly.
    We must find a better way, a better solution, a better vision with 
clearly defined missions and goals for our space program than the one 
proposed in this budget. I believe continuation and acceleration of the 
Constellation Program or some variant of it is one way to achieve that, 
along with examining additional ways we might more quickly obtain the 
capability to explore beyond low earth orbit, such as with the 
development of a shuttle-derived heavy launch vehicle. If, however, we 
instead accept the Administration's proposal laid out in this budget 
request, I have no doubt that it will lead to no less than the ruin of 
our proud space program that the rest of the world has admired and 
envied for so long.
    I will have questions for the record to focus on some of these 
issues and concerns, and I look forward to the chance to discuss some 
of them, and some of the answers, with you today, Mr. Bolden, as well 
as with the rest of our esteemed panelists.
    Thank you all again in advance for your testimony.

    Senator Nelson. Well, we're going to have a chance, Senator 
Vitter, to perfect this budget. And that's what this process is 
all about.
    General Bolden, you may have bit off a little more than you 
wanted to chew with these opening comments.
    Let me just say that most everybody in this room knows 
Charlie Bolden and knows the extraordinary kind of leader that 
he is. A retired Marine major general. I shared this during the 
confirmation hearing, but another astronaut had said to me that 
Charlie Bolden was the best leader that he had ever run into 
and had taught him more about leadership than any other person, 
and that included that astronaut's experience in the Astronaut 
Office and his 20 years as an Air Force officer.
    General Bolden is a veteran of four spaceflights. He is a 
graduate of the Naval Academy. He has had assignments in the 
Marine Corps, up until the time that he retired, that have been 
extraordinary assignments.
    And you come well prepared to a very tough job during a 
very challenging time and overlaid with a very difficult 
budgetary environment. General Bolden, welcome to the 
Committee. It's an honor to have you here.

           STATEMENT OF HON. CHARLES F. BOLDEN, JR.,

              ADMINISTRATOR, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    General Bolden. Mr. Chairman, thank you very much, and 
members of the Subcommittee. I want to thank you for the 
opportunity to discuss the President's Fiscal Year 2011 budget 
request for NASA.
    I'm grateful for the support and guidance of this 
subcommittee, and I look forward to working with you on 
enactment of the President's bold new direction for our agency.
    Before I continue with my statement, let me add one thing 
noted as not in my prepared statement. And I do--because my 
deputy was, I feel, unfairly represented, I hope that we have 
an opportunity to go back to that discussion. And I also would 
like to go back to the discussion on the NASA family, because 
I'm a member of the NASA family, and I have been for--since 
1980. So, I, too, share the passion that you express, Senator 
Vitter, about the NASA family and their welfare.
    I want to say right upfront that I understand the 
Committee's concerns that details such as our justification 
documents have been slow to reach you. I apologize and ask your 
continued patience as we finalize the details of this historic 
change in NASA's direction.
    Since the introduction of the budget, many have asked what 
the destination is for human spaceflight, beyond low-Earth 
orbit, under the President's plan. The answer, as Senator 
Nelson has expressed, is that our program seeks to enable the 
capabilities we will need for astronauts to meaningfully 
explore the Moon, asteroids, and eventually Mars. And Mars is 
which--what I believe to be the ultimate destination for human 
exploration in our solar system, at least under my 
administration.
    The right investments in technology will allow us to map 
out a realist path to this destination that continues to 
inspire generations of schoolchildren, just as it inspired me 
many years ago, when I was growing up in Columbia, South 
Carolina, watching Buck Rogers go to Mars with ease each week, 
from my seat in the balcony of the Carolina Theater, there in 
Columbia.
    The President's Fiscal Year 2011 budget request for NASA is 
$19-point--$19 billion, including an increase of $276 million 
over the enacted 2010 level. Longer term, I am pleased that the 
budget commits an increased investment of $6 billion in NASA 
science, aeronautics, and enabling technologies, over the next 
5 years, compared with last year's plan.
    All of us at NASA appreciate the President making NASA such 
a high priority at a time when budget realities dictate 
reductions and freezes for other worthwhile programs. At a time 
when we all worry about the economy, NASA's bold new direction 
will assist economic growth in the United States, particularly 
in the aerospace industry. One lesson from decades of 
technology investment by the Federal Government is that funding 
for research and development leads to innovative capabilities 
and breakthroughs which, in turn, lead to sustained private-
sector job creation. Such R&D investments are a cornerstone of 
the public-private partnership between our government and 
American industry.
    With the President's new vision, the NASA budget will 
invest much more heavily on technology research and development 
than recent NASA budgets. This will foster new technological 
approaches, standards, and capabilities that are critical to 
enable next-generation spaceflight, Earth-sensing and 
aeronautics capabilities. These investments will produce 
additional opportunities for U.S. industry to spur new 
businesses, such as recently announced partnership between NASA 
and General Motors, to build an advanced dexterous humanoid 
robot, commonly called ``R2.''
    I want to share a few highlights about NASA's bold new path 
to become an engine of innovation with an ambitious new space 
program that includes and inspires people around the world. 
Under this program, the United States will pursue a more 
sustainable and affordable approach to human space exploration 
through the development of transformative technologies and 
systems. We will encourage the development of commercial human 
spaceflight vehicles to access low-Earth orbit. We will develop 
new technologies that will enable more efficient U.S. human 
exploration into the solar system than is currently conceived.
    As the Constellation program is ended in an orderly manner, 
I want to thank all of the NASA employees and contractors who 
have worked so hard on this program and given so much of their 
time and their heart. Their commitment has brought great value 
to the agency and to our Nation, and they will continue to play 
a pivotal role in NASA's future path. Many of the things NASA 
has learned from the Constellation program will be critical as 
the agency moves forward.
    More specifically, in Fiscal Year 2011 NASA will undertake 
a flagship technology development and demonstration program 
with our international partners, commercial, and other 
government entities to demonstrate critical technologies, such 
as in-orbit propellant transfer and storage, inflatable 
modules, automated/autonomous rendezvous and docking, and 
closed-loop life-support systems; heavy-lift research and 
development that will investigate a broad scope of research and 
development activities to support new space-launch propulsion 
technologies; robotic precursor missions to multiple 
destinations in the solar system in support of future human 
exploration, including missions to the Moon, Mars and its 
moons, Lagrange points, and nearby asteroids; significant 
investments for the development of commercial crew and further 
cargo capabilities; extension of the lifetime of the 
International Space Station to 2020 or beyond, in concert with 
our international partners; pursuit of crosscutting space 
technology capabilities, led by the newly established Office of 
the Chief Technologist, to spawn game-changing innovations to 
make space travel more affordable and more sustainable; climate 
change research and observations which will enable NASA to 
substantially accelerate and expand its Earth science 
capabilities, including a replacement for orbiting--for the 
Orbiting Carbon Observatory; aeronautics R&D, including 
critical areas of Next-Generation Air Transportation System, or 
NextGen; green aviation and safe integration of unmanned 
aircraft systems into the national aerospace system; education 
initiatives, including the recently announced Summer of 
Innovation pilot program to inspire middle school students.
    Americans and people worldwide have turned to NASA for 
inspiration throughout our history. Our work gives people an 
opportunity to imagine what is barely possible. And we at NASA 
get, in turn--get to turn those dreams into real achievements, 
for all humankind, through missions we execute.
    This budget gives NASA a roadmap to even more historic 
achievements as it spurs innovation, employs Americans in 
exciting jobs, and engages people around the world.
    Mr. Chairman, thank you, again, for your support and that 
of this subcommittee. I would be pleased to respond to any 
questions you or the members may have.
    [The prepared statement of General Bolden follows:]

   Prepared Statement of Hon. Charles F. Bolden, Jr., Administrator, 
             National Aeronautics and Space Administration
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the President's FY 2011 budget 
request for NASA. NASA is grateful for the support and guidance 
received from this committee through the years and looks forward to 
working with you on enactment of the President's bold new direction.
    The President's FY 2011 budget request for NASA is $19.0 billion, 
which represents an increase of $276.0 million above the amount 
provided for the Agency in the FY 2010 Consolidated Appropriations Act 
(P.L. 111-117), and an increased investment of $6.0 billion in NASA 
science, aeronautics, human spaceflight and enabling space technologies 
over the next five-years compared with last year's budget plan. 
Enclosure 1 displays the details of the President's FY 2011 budget 
request for NASA.
    Before I discuss the details of the NASA budget request, I would 
like to talk about the importance of NASA's direction for economic 
growth in the United States, particularly in the aerospace industry. 
One general lesson from decades of technology investment by the Federal 
Government is that funding for research and development leads to 
innovative capabilities and breakthroughs, which in turn lead to 
sustained private-sector job creation. Such R&D investments are a 
cornerstone of the public-private partnership between the Federal 
Government and American industry.
    With the President's new direction, the NASA budget will invest 
much more heavily on technology R&D than recent NASA budgets, which 
will in turn foster new technological approaches, standards, and 
capabilities that are critical to enable next-generation spaceflight, 
Earth-sensing and aeronautics capabilities. These investments will 
produce additional opportunities for U.S. industry and spur new 
businesses. Take the case of the recently announced partnership between 
NASA and General Motors to build an advanced dextrous humanoid robot. 
This robot will help GM in its manufacturing plants and assist in NASA 
efforts, such as robotic assembly and repair missions.
    The President's FY 2011 budget for NASA also supports critical 
investments in launch infrastructure and capabilities. The budget 
provides funds to support NASA and Air Force upgrades to the KSC/CCAFS 
launch complex enabling us to make the Kennedy Space Center area a 21st 
Century launch complex. This in time will allow us to improve launch 
and processing throughput and will support the flagship demonstration 
projects, robotic precursor missions, smaller scale demonstrations, and 
commercial crew vehicles that are also funded in this budget at 
unprecedented levels. This increased pace and diversity of launch 
activity should lead to future opportunities for the launch vehicle-
related workforce, while also helping to enhance industry robustness 
over the long term.
    Finally, NASA's FY 2011 budget furthers the Nation's efforts to 
inspire the next generation of scientists, engineers, and 
mathematicians. NASA's missions will seek the involvement of students, 
educators, and the public across the United States to inspire their 
interest and proficiency in science, technology, engineering and 
mathematics (STEM). In this way, NASA plans to help to build America's 
next STEM workforce.
    Thus overall, I am very excited about the beneficial effect that 
NASA's planned activities will have on economic growth in the United 
States, especially in aerospace-related industries. Now let me turn to 
describe our budget request in some detail.
Highlights of the FY 2011 Budget Request
    The President has laid out a bold new path for NASA to become an 
engine of innovation, with an ambitious new space program that includes 
and inspires people around the world. Beginning in FY 2011, the United 
States will pursue a more sustainable and affordable approach to human 
space exploration through the development of transformative 
technologies and systems. As the Constellation Program is ended in an 
orderly manner, NASA will encourage the development of commercial human 
spaceflight vehicles to safely access low-Earth orbit and will develop 
new technologies that will lay the foundation for a more exciting, 
efficient and robust U.S. human exploration of the solar system than we 
are currently capable of, while further strengthening the skills of our 
workforce and our Nation in challenging technology areas. NASA will 
also invest increased resources in climate change research and 
observations; aeronautics research and development (R&D), including 
green aviation; space technology development of benefit across the 
entire space sector; and education with an emphasis on Science, 
Technology, Engineering and Mathematics (STEM) learning.
    Here is a broad outline of the FY 2011 budget plan followed by more 
details. In FY 2011, NASA will undertake:

  <bullet> Transformative technology development and demonstrations to 
        pursue new approaches to human spaceflight exploration with 
        more sustainable and advanced capabilities that will allow 
        Americans to explore the Moon, Mars and other destinations. 
        This effort will include a flagship demonstration program, with 
        international partners, commercial and other government 
        entities, to demonstrate critical technologies, such as in-
        orbit propellant transfer and storage, inflatable modules, 
        automated/autonomous rendezvous and docking, closed-loop life 
        support systems, and other next-generation capabilities. It 
        will also include projects that are smaller and shorter-
        duration, which will demonstrate a broad range of key 
        technologies, including in-situ resource utilization and 
        advanced in-space propulsion.

  <bullet> Heavy-lift propulsion research and development that will 
        investigate a broad scope of R&D activities to support next-
        generation space launch propulsion technologies, with the aim 
        of reducing costs and shortening development timeframes for 
        future heavy-lift systems for human exploration.

  <bullet> Robotic precursor missions to multiple destinations in the 
        solar system in support of future human exploration, including 
        missions to the Moon, Mars and its moons, Lagrange points, and 
        nearby asteroids.

  <bullet> Significant investments for the development of commercial 
        crew and further cargo capabilities, building on the successful 
        progress in the development of commercial cargo capabilities 
        to-date. NASA will allocate these funds through competitive 
        solicitations that support a range of higher- and lower-
        programmatic risk systems and system components, such as human-
        rating of existing launch vehicles and development of new 
        spacecraft that can ride on multiple launch vehicles.

  <bullet> Extension of the lifetime of the International Space Station 
        (ISS), likely to 2020 or beyond, in concert with our 
        international partners, with investments in expanded ISS 
        utilization through upgrades to both ground support and onboard 
        systems and use of the ISS as a National Laboratory.

  <bullet> Pursuit of cross-cutting Space Technology capabilities, led 
        by the newly established Office of the Chief Technologist, 
        which will fund advancements in next-generation technologies, 
        to help improve the Nation's leadership in key research areas, 
        enable far-term capabilities, and spawn game-changing 
        innovations that can unlock new possibilities and make space 
        activities more affordable and sustainable. A NASA focus on 
        innovation and technology will enable new approaches to our 
        current mission set and allow us to pursue entirely new 
        missions for the Nation.

  <bullet> Climate change research and observations, which will enable 
        NASA to substantially accelerate and expand its Earth Science 
        capabilities, including a replacement for the Orbiting Carbon 
        Observatory, development of new satellites recommended by the 
        National Academy of Sciences Decadal Survey, and development of 
        smaller Venture class missions. This investment will ensure the 
        critically important continuity of certain key climate 
        measurements and enable new measurements to address unknowns in 
        the climate system, yielding expanded understanding of our home 
        planet and improved understanding of climate change.

  <bullet> Aeronautics research and development, including critical 
        areas of the Next Generation Air Transportation System, 
        environmentally responsible aviation, and safe integration of 
        unmanned aircraft systems into the national airspace.

  <bullet> Education initiatives, including the recently announced 
        Summer of Innovation pilot program involving NASA scientist and 
        curricula to inspire middle-school students and their teachers 
        with exciting experiences that spur those students to continue 
        in STEM careers.

    I wish to emphasize that NASA intends to work closely with the 
Congress, including this subcommittee, to make a smooth transition to 
the new Exploration program, called for in the President's request, 
working responsibly on behalf of the taxpayers. With my deepest 
gratitude, I commend the hard work and dedication that thousands of 
NASA and contractor workers have devoted to Constellation over the last 
several years. Their commitment has brought great value to the Agency 
and to our Nation, and they will continue to play a pivotal role in 
NASA's future path. Many of the things NASA has learned from the 
Constellation program will be critical as the Agency moves forward.
    The following contains more detail on the summary points made 
above, in the standard budget order for NASA's appropriation accounts.
Science
    The President's FY 2011 request for NASA includes $5,005.6 million 
for Science. The NASA Science Mission Directorate (SMD) continues to 
expand humanity's understanding of our Earth, our Sun, the solar system 
and the universe with 59 science missions in operation and 30 more in 
various stages of development. The Science budget funds these missions 
as well as the research of over 3,000 scientists and their students 
across our Nation. The recommendations of the National Academies/
National Research Council (NRC) decadal surveys help to guide SMD in 
setting its priorities for strategic science missions; and SMD selects 
competed missions and research proposals based on open competition and 
peer review.
    The FY 2011 budget request for Science includes $1,801.7 million 
for Earth Science. This request increases investment in Earth Science 
by $1.8 billion from FY 2011 to FY 2014 compared to the FY 2010 budget, 
for a more aggressive response to the challenge of climate change. NASA 
will rapidly develop an Orbiting Carbon Observatory-2 mission for 
launch early in 2013 and a GRACE Follow-On mission for launch in late 
2015, respectively, to initiate and extend key global climate data 
sets. This request accelerates several high-priority Decadal Survey 
missions that will advance climate research and monitoring. The 
increased funding accelerates launch of the Soil Moisture Active/
Passive (SMAP) mission by 6 months from its estimated date at the 
recent Agency Key Decision Point (KDP)-B review, to November 2014. 
ICESAT-2 is advanced by 5 months relative to the estimated date at its 
recent Agency KDP-A review, to October 2015. The Climate Absolute 
Radiance and Refractivity Observatory (CLARREO) mission and the 
Deformation, Ecosystem Structure and Dynamics of Ice (DESDynI) mission 
are each accelerated by 2 years, with both launching in late 2017. 
Thus, the budget request allows all four Tier-1 Decadal Survey missions 
to be launched between 2014 and 2017. In addition, NASA--working with 
the U.S. Global Change Research Program--will be able to identify and 
begin development for accelerated launch of selected Tier-2 Decadal 
Survey missions focused on climate change. The budget supports critical 
continuity of climate observations, including a Stratospheric Aerosol 
and Gas Experiment III (SAGE III) instrument to be developed for 
deployment on the ISS, while also supporting an accelerated pace of 
smaller ``Venture class'' missions. Finally, increased resources for 
Earth Science will allow NASA to expand key mission-enabling 
activities, including carbon monitoring, technology development, 
modeling, geodetic ground network observations, and applications 
development including the highly successful SERVIR program.
    At present, NASA Earth-observing satellites provide the bulk of the 
global environmental observations used for climate change research in 
the United States and abroad. This year, analyses of NASA satellite 
measurements quantified the rates of ground water depletion since 2003 
in California and in India's Indus River valley--rates that are 
unsustainable for the future. NASA conducted the first ICEBridge 
airborne campaigns in both Arctic and the Antarctic, to maintain the 
critical ice measurements during the gap in time between the ICESAT-1 
and -2 satellites.
    In FY 2011, the Glory and Aquarius missions will launch; and FY 
2011 should close with the launch of the NPOESS Preparatory Project. 
The Landsat Data Continuity Mission will complete spacecraft 
integration and test, the Operational Land Imager will be delivered, 
and the Thermal Infrared Sensor will continue development. The Global 
Precipitation Mission will complete its System Integration Review in 
preparation for the beginning of assembly, integration and testing. 
During FY 2011, the SMAP mission will transition from formulation to 
development, and ICESAT-2 will begin design. Also in FY 2011, 
instrument development and observations initiated under the first 
Venture class solicitation for sustained airborne missions will reach 
full funding, and the next Venture class solicitations will be 
released--this time for space-based mission instrument, and complete 
mission, developments. Engineering studies and focused, actively-
managed technology investments--instruments, components, and 
information systems--continue for the suite of future missions 
recommended by the National Research Council (NRC) Decadal Survey. In 
FY 2011, the Earth Science Technology Program will make additional, 
competitively-selected, instrument technology investments to meet 
decadal survey measurement goals. Earth Science Research and Applied 
Sciences Programs will continue to employ satellite observations to 
advance the science of climate and environmental change, mitigation, 
and adaptation. NASA will demonstrate the use of Uninhabited Aerial 
Systems in field campaigns addressing atmospheric trace gas composition 
and hurricane genesis, and NASA's modeling and data analysis efforts 
will contribute to assessment activities of the Intergovernmental Panel 
in Climate Change and the U.S. Global Change Research Program.
    The FY 2011 budget request for Science includes $1,485.8 million 
for Planetary Science. The current NASA planetary missions continue to 
make new discoveries and return fascinating images, including a 
previously unknown large and askew ring of Saturn and a near-complete 
map of the surface of Mercury. Mars continues to intrigue with signs of 
water ice just below the surface at mid-latitudes. The Mars rover 
Spirit is now an in situ science prospector, while Opportunity 
continues to roll toward the crater Endeavor. The Moon Mineralogy 
Mapper instrument on India's Chandrayaan-1 mission detected small 
amounts of water and hydroxyl molecules at unexpectedly low latitudes 
on the lunar surface. NASA selected three new candidate mission 
concepts for further study under the New Frontiers program, and will 
select the winning concept in FY 2011 to proceed to development. NASA 
will issue its next Discovery Announcement of Opportunity this year, 
and will select mission concepts and fund concept studies in FY 2011. 
NASA will also begin Advanced Stirling Radioisotope Generator 
development in FY 2011 to be available as an option to improve the 
performance of the radioisotope-fueled power sources for use in the 
next Discovery mission. The Mars Science Laboratory will complete 
development in FY 2011 for launch in fall 2011, beginning the most 
comprehensive astrobiology mission to the Red Planet to date. The MAVEN 
Mars aeronomy mission will continue development for launch in late 
2013. NASA will establish a joint Mars Exploration Program with the 
European Space Agency (ESA) with a trace gas orbiter mission, including 
a European technology demonstration lander. In FY 2011, NASA plans to 
select instruments for the mission via a joint Announcement of 
Opportunity. To advance scientific exploration of the Moon, NASA will 
launch the GRAIL mission in late 2011 and continue development of LADEE 
for launch in 2013. Continuing its exploration of the outer planets, 
NASA will launch the Juno mission to Jupiter in August 2011. NASA will 
continue studies that support the possibility of a new major Outer 
Planets Mission concept pending the outcome of the NRC decadal survey 
now in progress, and will coordinate with ESA on a solicitation for 
science instruments. The new NRC Decadal Survey in Planetary Science 
should be complete in FY 2011. The FY 2011 budget request increases 
NASA's investment in identification and cataloging of Near Earth 
Objects and, with the Department of Energy, begins funding the 
capability to restart Plutonium-238 production here in the United 
States.
    The FY 2011 budget request for Science includes $1.076.3 million 
for Astrophysics. The golden age of Astrophysics from space continues, 
with 14 observatories in operation. Astrophysics research, technology 
investments, and missions aim to understand how the universe works, how 
galaxies, stars and planets originated and developed over cosmic time, 
and whether Earth-like planets--and possibly life--exist elsewhere in 
the cosmos. The NASA Kepler telescope has discovered five exoplanets, 
ranging in size from Neptune to larger than Jupiter, demonstrating that 
the telescope is functioning as intended; additional discoveries are 
anticipated in the coming months and years. NASA's newest space 
observatory, WISE (Wide-Field Infrared Explorer), has captured its 
first look at the starry sky and its sky survey in infrared light has 
begun. Radio astronomers have uncovered 17 millisecond pulsars in our 
galaxy by studying unknown high-energy sources detected by the Fermi 
Gamma-ray Space Telescope.
    The Hubble Space Telescope is operating at its peak performance 
thanks to the very successful servicing mission last year by the STS-
125 crew. The Herschel and Planck missions, led by the European Space 
Agency with NASA as a partner, launched in 2009 and are returning 
remarkable scientific results. In FY 2011, NASA will complete most of 
the development of the NuSTAR mission and prepare it for launch. NASA 
will also begin developing the Gravity and Extreme Magnetism (GEMS) 
mission recently selected in the Explorer small satellite program. The 
James Webb Space Telescope (JWST) continues to make good progress in 
development toward a 2014 launch. Flight hardware for the many JWST 
subsystems is being designed, manufactured and tested, including the 18 
segments of its 6.5-meter primary mirror; and the mission-level 
Critical Design Review for JWST will occur this spring. The SOFIA 
airborne observatory successfully conducted its first open-door flight 
test in December 2009--a major milestone toward the beginning of early 
science operations this year. The NRC is conducting a new Decadal 
Survey in astronomy and astrophysics, which will set priorities among 
future mission concepts across the full spectrum of Astrophysics, 
including dark energy, gravity wave, and planet-finding missions; the 
``Astro2010'' Decadal Survey is expected in September.
    The FY 2011 budget request for Science includes $641.9 million for 
Heliophysics. The Heliophysics operating satellites provide not only a 
steady stream of scientific data for the NASA research program, but 
also supply a significant fraction of critical space weather data used 
by other government agencies for support of commercial and defense 
activities in space. These data are used for operating satellites, 
optimization of power transmission networks, and supporting 
communications, aviation and navigation systems. The NASA Aeronomy of 
Ice in Mesosphere (AIM) satellite has provided the first comprehensive, 
global-scale view of the complex life cycle of Earth's highest clouds, 
Polar Mesospheric Clouds, finding clues to why they appear to be 
occurring at lower latitudes than ever before. The STEREO B spacecraft 
recently observed a sunspot behind the Sun's southeastern limb--before 
it could be seen from Earth. In a few days, this sunspot produced five 
Class M solar flares of the kind that disturb radio signals on Earth, 
signaling the end of the Sun's extended quiet period of recent years. 
The Solar Dynamic Observatory (SDO), launched on February 11, will 
provide images of the Sun of unprecedented resolution, yielding new 
understanding of the causes of solar variability and its impact on 
Earth. In FY 2011, the Radiation Belt Storm Probes mission will 
complete hardware manufacturing and begin integration and testing. The 
Solar Orbiter Collaboration with the European Space Agency will 
continue in formulation, and the Solar Probe Plus mission will undergo 
an initial confirmation review at the end of FY 2011. The 
Magnetospheric Multi-scale mission will continue development toward a 
Critical Design Review. IRIS, a recently selected small Explorer 
mission, will hold its Critical Design Review in FY 2011. The next 
Explorer Announcement of Opportunity will be released in 2010, with 
selection for Phase A studies in FY 2011. NASA is working with the NRC 
to arrange for the next decadal survey in Heliophysics.
Aeronautics Research
    The U.S. commercial aviation enterprise is vital to the Nation's 
economic well-being, directly or indirectly providing nearly one 
million Americans with jobs. In 2008 aerospace manufacturing provided 
the Nation with a trade surplus of over $57 billion. In the United 
States, more than 60 certified domestic carriers operate more than 
28,000 flights daily, moving nearly one million travelers each day. We 
expect these flights to be safe, affordable, and convenient. We expect 
airlines to offer flights when and where we want to travel. In business 
and in our personal lives, the aviation industry is a key enabler to 
our way of life and the smooth functioning of our economy. However, the 
air transport system is near maximum capacity given today's procedures 
and equipment. Rising concerns about the environmental and noise 
impacts of aviation further limit future growth.
    The FY 2011 budget request for Aeronautics is $579.6 million, an 
increase of $72.6 million, which will strongly support our existing 
portfolio of research and development to directly address these most 
critical needs of the Nation and enable timely development of the Next 
Generation Air Transportation System (NextGen). Through a balanced 
research and development portfolio, NASA's Aeronautics Research Mission 
Directorate (ARMD) is exploring early-stage innovative ideas, 
developing new technologies and operational procedures through 
foundational research, and demonstrating the potential of promising new 
vehicles, operations, and safety technology in relevant environments. 
Our goals are to expand capacity, enable fuel-efficient flight 
planning, reduce the overall environmental footprint of airplanes today 
and, in the future, reduce delays on the ground and in the sky, and 
improve the ability to operate in all weather conditions while 
maintaining the current high safety standards we demand.
    The FY 2011 budget request for Aeronautics includes $228.5 million 
for the Fundamental Aeronautics Program, which seeks to continually 
improve technology that can be integrated into today's state-of-the art 
aircraft, while enabling game-changing new concepts such as Hybrid Wing 
Body (HWB) airframes which promise reduced drag (thus improving fuel 
burn) and open-rotor engines which offer the promise of 20 percent fuel 
burn reduction compared to today's best jet engines. In partnership 
with Boeing and the Air Force, NASA has completed over 75 flights of 
the X48B sub-scale HWB aircraft at Dryden Flight Research Center in the 
last 2 years to explore handling and control issues. NASA is partnering 
with General Electric and Boeing to evaluate performance and 
integration of new open-rotor engine concepts in propulsion wind 
tunnels at the Glenn Research Center. NASA is also addressing key 
challenges to enable new rotorcraft and supersonic aircraft, and 
conducting foundational research on flight at seven times the speed of 
sound. American Recovery and Reinvestment Act funds have enabled NASA 
to recommission a full-scale airframe structural test facility and to 
improve wind tunnels at the Langley, Ames, and Glenn Research Centers 
that are needed to assess new concepts that hold the promise of 
significant reductions in aircraft weight and fuel consumption. In 
partnership with industry, NASA has just initiated the first new 
government-funded effort on low NO<INF>X</INF> combustors in 15 years. 
In FY 2011, NASA will invest $30.0 million to design, build, and 
demonstrate a new generation of aircraft engine combustors that will 
lower the emission of harmful nitrogen oxides by 50 percent compared 
with current combustors while ensuring compatibility with current and 
future alternative aviation fuels.
    A key research goal is to develop synthetic and bio-derived 
alternatives to the petroleum-derived fuel that all jet aircraft have 
used for the last 60 years, but little is known about the emissions 
characteristics of these alternative fuels. In 2009, NASA led a team of 
eight partners from government agencies, industry, and academia in 
measuring emissions from an aircraft parked on the ground operating on 
various blends of synthetic and standard jet fuel. This team discovered 
that synthetic fuel blends can reduce particulate emissions by as much 
as 75 percent compared to conventional jet fuels, which would offer a 
major improvement in local air quality around airports. Using results 
from this and other research efforts, NASA has established a publicly-
available database of fuel and emissions properties for 19 different 
fuels and will perform similar tests on biofuels as they become 
available.
    The FY 2011 budget request for Aeronautics includes $82.2 million 
for Airspace Systems. The focus of this program is to achieve 
reductions in environmental impact not only through new aircraft, 
engines, and fuels, but also through improved air traffic management 
procedures. Using flight data from just the top 27 airports in the 
country, NASA systems analysis results indicate that nearly 400 million 
gallons of fuel could be saved each year if aircraft could climb to and 
descend from their cruising altitude without interruption. Another 200 
million gallons could be saved from improved routing during the cruise 
phase of flight. Achievement of such operations requires that aircraft 
spacing in the air and on-time arrival and departure from the regions 
around our major airports be greatly improved. New satellite-based 
navigation aids such as the ADS-B system that the Federal Aviation 
Administration (FAA) is installing throughout the country can enable 
these improvements, but safe and efficient operational procedures must 
first be developed, validated, and certified for operational use. In 
2009, NASA partnered with FAA, United Airlines, and Air Services 
Australia to validate pilot and controller procedures for a new concept 
originally developed by NASA that enables aircraft to safely conduct 
climbs and descents outside radar coverage in close proximity to nearby 
traffic. NASA also provided safety analyses needed for regulatory 
approval. The procedures benefit both airlines and the traveling public 
by providing long-haul oceanic flight with easier access to fuel-
efficient, turbulence-free altitudes. United Airlines is expected to 
begin flying the oceanic in-trail procedures on revenue flights in May 
2011.
    The FY 2011 budget request for Aeronautics includes $113.1 million 
for the Integrated Systems Research Program. Begun in FY 2010, this 
program evaluates and selects the most promising ``environmentally 
friendly'' engine and airframe concepts emerging from our foundational 
research programs for integration at the systems level. In FY 2011, the 
program will test integrated systems in relevant environments to 
demonstrate that the combined benefits of these new concepts are in 
fact greater than the sum of their individual parts. Similarly, we are 
integrating and evaluating new operational concepts through real-world 
tests and virtual simulations. These efforts will facilitate the 
transition of new capabilities to manufacturers, airlines and the FAA, 
for the ultimate benefit of the flying public. In addition to strongly 
supporting our ongoing research portfolio, the FY 2011 budget request 
includes increased funding to expand our research in new priority areas 
identified through close consultation with industry, academia and other 
Federal agencies. In FY 2011, NASA will initiate a $30 million targeted 
effort to address operational and safety issues related to the 
integration of unmanned aircraft systems into the National Airspace 
System and augment research and technology development efforts by $20 
million, including grants and cooperative agreements, to support NASA's 
environmentally responsible aviation research.
    The FY 2011 budget request for Aeronautics includes $79.3 million 
for the Aviation Safety Program. This program conducts research to 
insure that aircraft and operational procedures maintain the high level 
of safety which the American public has come to count on. Safety issues 
span aircraft operations, air traffic procedures, and environmental 
hazards and this program is supporting research and delivering results 
in all three areas. American carriers operate 6,500 aircraft on more 
than 28,000 flights daily. For most of the day the FAA is controlling 
more than 4,000 aircraft in the sky at the same time. Further increases 
in capacity will require increased levels of automation for command and 
control functions and to analyze vast amounts of data, as well as 
increased complexity of the overall system. It now costs more to prove 
today's flight-critical systems are safe than it does to design and 
build them. The Joint Planning and Development Office has identified 
Verification and Validation (V&V) of aviation flight-critical hardware 
and software systems as one of the major capability gaps in NextGen. 
Therefore in FY 2011, NASA is initiating a new $20 million research 
activity in V&V of aviation flight-critical systems to develop 
methodologies and concepts to effectively test, validate and certify 
software-based systems that will perform reliably, securely, and safely 
as intended.
    NASA will continue to tackle difficult issues that threaten the 
safety of commercial flight, ranging from human/machine interaction to 
external hazards such as weather and icing, as the aircraft industry 
has come to rely on NASA expertise in predicting the effects of icing 
on aircraft performance at low and intermediate altitudes. However, 
over the last 10 years a new form of icing problem has surfaced, 
occurring primarily in equatorial regions at high cruise altitudes and 
causing engine power loss or flameout. These conditions cannot be 
duplicated in any existing ground test facility. To study this problem, 
in 2009 NASA initiated an effort to modify the Propulsion Systems 
Laboratory at the Glenn Research Center to enable research on ways to 
mitigate the effects of high-altitude icing and development of new 
engine certification procedures.
    The FY 2011 budget request for Aeronautics includes $76.4 million 
for the Aeronautics Test Program (ATP), which makes strategic 
investments to ensure availability of national ground facilities and 
flight assets to meet the testing needs of NASA and the Nation. The 
program also invests in the development of new test instrumentation and 
test technologies. One such example is ATP's collaboration with the 
Aviation Safety Program to provide a new testing capability in the 
NASA-Glenn PSL facility to address the threat of high-altitude ice 
crystals to jet engine operability. The program recently demonstrated 
for the first time the ability to generate ice crystals at the very 
cold temperatures (-60 +F) encountered at commercial aircraft cruise 
altitudes. The PSL high-altitude ice crystal capability will become 
operational in FY 2011. The program also completed the development of a 
new Strategic Plan to provide the vision and leadership required to 
meet national goals; provide sustained support for workforce, 
capability improvements, and test technology development; and provide 
strategic planning, management, and coordination with NASA, government, 
and industry stakeholders. This plan will provide informed guidance as 
ATP develops a critical decision tool for building well-coordinated 
national testing capabilities in collaboration with the Department of 
Defense through the National Partnership for Aeronautical Testing 
(NPAT).
    Partnerships with industry, academia, and other Federal agencies 
are critical to the success and relevance of NASA research. Through 
close collaboration, NASA ensures that it works on the right challenges 
and improving the transition of research results to users. NASA is 
using NASA/FAA Research Transition Teams (RTTs) to conduct joint 
research and field-trials to speed acceptance of new air traffic 
management procedures. The Agency is also coordinating management and 
operation of the Federal Government's large aeronautics ground test 
infrastructure through the NPAT. Through NASA Research Announcements 
(NRAs), NASA solicits new and innovative ideas from industry and 
academia while providing support for Science, Technology, Engineering, 
and Math departments. The Agency also funds undergraduate and graduate 
scholarships, Innovation in Aeronautics Instruction grants to improve 
teaching programs at the university level, and sponsor student design 
competitions at undergraduate and graduate levels for both U.S. and 
international entrants. By directly connecting students with NASA 
researchers and our industrial partners we become a stronger research 
organization while inspiring students to choose a career in the 
aerospace industry.
Exploration
    The FY 2011 budget request for Exploration is $4,263.4 million, an 
increase of $483.6 million above the FY 2010 enacted level. Included in 
this budget request is funding for three new, robust programs that will 
expand the capabilities of future space explorers far beyond those we 
have today. NASA will embark on these transformative initiatives by 
partnering with the best in industry, academia and other government 
agencies, as well as with our international partners. These partners 
have been integral to much of NASA's previous success and are vital to 
our bold new vision.
    NASA will encourage active public participation in our new 
exploration missions via a new participatory exploration initiative. 
Additionally, the FY 2011 budget request builds upon NASA's commercial 
cargo efforts by providing significant funding for the development of 
commercial human spaceflight vehicles, freeing NASA to focus on the 
forward-leaning work we need to accomplish for beyond-LEO missions. The 
FY 2011 budget request is a 40 percent increase over last year's 
investment in the Human Research Program, to help prepare for future 
human spaceflight exploration beyond low-Earth orbit. Last, the 
Exploration FY 2011 budget request includes funding for the 
Constellation Program close-out activities spread across FY 2011 and FY 
2012.
    In the near term, NASA is continuing Constellation work to ensure 
an orderly closeout of the program in FY 2011 and to capture of all of 
the knowledge learned through its key efforts. The Constellation 
Program is focusing on completing its Preliminary Design Review (PDR), 
which will conclude this year. NASA believes that completing the 
Constellation PDR will support not only the close-out process for 
Constellation, but also will ensure that historical data from 
Constellation work is documented, preserved and made accessible to 
future designers of other next-generation U.S. human spaceflight 
systems.
    The Exploration FY 2011 budget request includes three new robust 
research and development programs that will enable a renewed and 
reinvigorated effort for future crewed missions beyond low-Earth orbit:

  <bullet> Technology Development and Demonstration Program: $652.4 
        million is requested in FY 2011, and a total of $7,800.0 
        million is included in the 5-year budget plan, to invent and 
        demonstrate large-scale technologies and capabilities that are 
        critical to future space exploration, including cryofluid 
        management and transfer technologies; rendezvous and docking 
        technologies; and closed-loop life support systems. These 
        technologies are essential to making future exploration 
        missions more capable, flexible, and affordable.

  <bullet> Heavy-Lift and Propulsion Research and Development Program: 
        $559.0 million is requested in FY 2011, and a total of $3,100.0 
        million is included in the five-year budget plan, for an 
        aggressive, new heavy-lift and propulsion R&D program that will 
        focus on development of new engines, propellants, materials and 
        combustion processes that would increase our heavy-lift and 
        other space propulsion capabilities and significantly lower 
        operations costs--with the clear goal of taking us farther and 
        faster into space consistent with safety and mission success.

  <bullet> Robotic Exploration Precursor Program: $125.0 million is 
        requested in FY 2011, and $3,000.0 million is included in the 
        five-year budget plan, for robotic missions that will pave the 
        way for later human exploration of the Moon, Mars and nearby 
        asteroids. Like the highly successful Lunar Reconnaissance 
        Orbiter and Lunar Crater Observation and Sensing Satellite 
        missions that captured our attention last fall, future 
        exploration precursor missions will scout locations and 
        demonstrate technologies to locate the most interesting places 
        to explore with humans and validate potential approaches to get 
        them there safely and sustainably.

    Cross-agency teams for each of these three areas are working to 
develop plans that delineate key areas for research and development, 
specify milestones for progress and set launch dates for relevant 
missions. They will report to the Administrator over the coming months, 
and the results of their efforts will be shared with the Congress when 
they are complete.
    The Exploration FY 2011 budget request for Commercial Spaceflight 
is $812.0 million, which includes $500.0 million to spur the 
development of U.S. commercial human spaceflight vehicles, and a total 
of $6 billion in the five-year budget plan. This investment funds NASA 
to contract with industry to provide astronaut transportation to the 
International Space Station as soon as possible, reducing the risk of 
relying solely on foreign crew transports, and frees up NASA resources 
to focus on the difficult challenges in technology development, 
scientific discovery, and exploration. We also believe it will help to 
make space travel more accessible and more affordable. An enhanced U.S. 
commercial space industry will create new high-tech jobs, leverage 
private sector capabilities and energy in this area, and spawn other 
businesses and commercial opportunities, which will spur growth in our 
Nation's economy. And, a new generation of Americans will be inspired 
by these commercial ventures and the opportunities they will provide 
for additional visits to space. NASA plans to allocate this FY 2011 
funding via competitive solicitations that support a range of 
activities such as human-rating existing launch vehicles and developing 
new crew spacecraft that can ride on multiple launch vehicles. NASA 
will ensure that all commercial systems meet stringent human-rating and 
safety requirements before we allow any NASA crew member (including 
NASA contractors and NASA-sponsored International partners) to travel 
aboard a commercial vehicle on a NASA mission. Safety is, and always 
will be, NASA's first core value.
    In addition to the $500 million identified for crew transportation 
development efforts, the budget also includes $312.0 million in FY 2011 
for incentivizing NASA's current commercial cargo program. These 
funds--by adding or accelerating the achievement of already-planned 
milestones, and adding capabilities or tests--aim to expedite the pace 
of development of cargo flights to the ISS and improve program 
robustness.
    Today, NASA is using $50.0 million from the American Recovery and 
Reinvestment Act of 2009 to help drive the beginnings of a commercial 
crew transportation industry. Through an open competition, in early 
February, NASA awarded Space Act Agreements to five companies who 
proposed ideas and concepts intended to make commercial crew services a 
reality. While there are many vibrant companies out there that we hope 
to partner with in the future, these five companies, along with our two 
currently funded Commercial Orbital Transportation Services partners 
(Space Exploration Technologies and Orbital Sciences Corporation) are 
at the forefront of a grand new era in space exploration.
    The Exploration FY 2011 budget request includes $215.0 million for 
the Human Research Program, an increase of more than 40 percent over 
the FY 2010 enacted level, and an investment of $1,075 million over the 
five-year budget plan. The Human Research Program is a critical element 
of the NASA human spaceflight program in that it develops and validates 
technologies that serve to reduce medical risks associated for crew 
members.
    The Exploration FY 2011 budget request includes $1,900.0 million 
for Constellation Closeout requirements, and a total of $2,500.0 
million over the FY 2011-2012 timeframe. These funds will be used for 
related facility and close-out costs, potentially including increased 
costs for Shuttle transition and retirement due to Constellation 
cancellation. The Agency has established senior planning teams to 
outline options for Constellation close out expeditiously and 
thoughtfully and to assess workforce, procurement and other issues, 
which will report to the Administrator over the coming months, to 
ensure that people and facilities are best utilized to meet the needs 
of NASA's new missions. NASA will work closely with the Congress as 
these activities progress.
    NASA recognizes that this change will personally affect thousands 
of NASA civil servants and contractors who have worked countless hours, 
often under difficult circumstances, to make the Constellation Program 
successful. I commend the investment that these dedicated Americans 
have made and will continue to make in our Nation's human spaceflight 
program. Civil servants who support Constellation should feel secure 
that NASA has exciting and meaningful work for them to accomplish after 
Constellation, and our contractor colleagues should know that NASA is 
working expeditiously to identify new opportunities for them to partner 
with the Agency on the new Exploration portfolio.
Space Technology
    Through the new Space Technology Program, led by the recently 
established Office of the Chief Technologist, NASA will increase its 
support for research in advanced space systems concepts and game-
changing technologies, enabling new approaches to our current mission 
set and allowing the pursuit of entirely new missions. Using a wide 
array of management, funding, and partnership mechanisms, this program 
will engage the brightest minds in private industry, across the NASA 
Centers, and throughout academia. This new program builds upon the 
success of NASA's Innovative Partnerships Program and directly responds 
to input from multiple NRC reports, as well as the Augustine Committee. 
The Space Technology program will meet NASA's needs for new 
technologies to support future NASA missions in science and 
exploration, as well as the needs of other government agencies and the 
Nation's space industry in a manner similar to the way NACA aided the 
early aeronautics industry. Many positive outcomes are likely from a 
long-term NASA advanced space systems concepts and technology 
development program, including a more vital and productive space future 
than our country has today, a means to focus NASA intellectual capital 
on significant national challenges and needs, a spark to renew the 
Nation's technology-based economy, an international symbol of our 
country's scientific and technological leadership, and a motivation for 
many of the country's best young minds to enter into educational 
programs and careers in engineering and science.
    The FY 2011 budget request for Space Technology is $572.2 million, 
and $4,925.9 million is included in the five-year budget plan. With 
this initiative, NASA will expand its Technology and Innovation 
portfolio to include: open competitions to stimulate highly innovative, 
early-stage space system concepts and ideas; development of 
technologies that can provide game-changing innovations to address NASA 
and national needs; and development and infusion of cross-cutting 
capabilities into missions that address needs from multiple NASA 
Mission Directorates, other government agencies, and commercial 
activities in space, while fostering and stimulating a research and 
development culture at NASA Centers. Beginning in FY 2011, activities 
associated with the Innovative Partnerships Program are transferred to 
Space Technology.
    The need for advanced capabilities is increasing as NASA envisions 
missions of increasing complexity to explore and understand the Earth, 
our solar system, and the universe. Technology and innovation are 
critical to successfully accomplishing these missions in an affordable 
manner. The Space Technology program will enhance NASA's efforts to 
nurture new technologies and novel ideas that can revolutionize our 
aerospace industrial base, as well as to address national and global 
challenges and enable whole new capabilities in science and exploration 
that will be of benefit to the Nation. Key focus areas include 
communications, sensors, robotics, materials, and propulsion. The Space 
Technology program will use open competitions such as NASA Research 
Announcements and Announcements of Opportunity, targeted competitions 
such as those for small business (SBIR), universities (STTR), and 
engage early career scientists and engineers. NASA will also continue 
to use challenges and prizes to stimulate innovative new approaches to 
technology development and will encourage partnerships with both 
established and emerging commercial space industries. Through the three 
major elements of this program--Early-Stage Innovation, Game-Changing 
Innovation, and Crosscutting Capabilities--a broad suite of management, 
funding and partnership mechanisms are employed to stimulate innovation 
across NASA, industry and academia.
    The Early-Stage Innovation program element sponsors a wide range of 
advanced space system concept and initial technology development 
efforts across academia, industry and the NASA Centers. This program 
element includes: (a) the Space Technology Research Grant program 
(analogous to the Fundamental Aeronautics program within NASA's 
Aeronautics Research Mission Directorate) that focuses on foundational 
research in advanced space systems and space technology, (b) re-
establishment of a NIAC-like Program to engage innovators within and 
external to the Agency in accordance with the recommendations of the 
NRC's Fostering Visions of the Future report, (c) enhancement of the 
Innovative Partnership Programs Seed Fund into a Center Innovations 
Fund to stimulate aerospace creativity and innovation at the NASA field 
Centers, (d) NASA's SBIR/STTR program to engage small businesses, and 
(e) the Centennial Challenges Prize Program to address key technology 
needs with new sources of innovation outside the traditional aerospace 
community. Competitive selection is a major tenet of all the activities 
within this low technology readiness level (TRL) program element.
    The Game Changing Innovation program element focuses on maturing 
advanced technologies that may lead to entirely new approaches for the 
Agency's future space missions and solutions to significant national 
needs. Responsive to the NRC report, America's Future in Space: 
Aligning the Civil Space Program with National Needs, this program 
element demonstrates the feasibility of early-stage ideas that have the 
potential to revolutionize future space missions. Fixed-duration awards 
are made to PI-led teams comprised of government, academia and industry 
partners. These awards are evaluated annually for progress against 
baseline milestones with the objective of maturing technologies through 
ground-based testing and laboratory experimentation. NASA intends to 
draw from DARPA's experience to create and implement collaborative 
game-changing space technology initiatives. New technologies considered 
may include advanced lightweight structures and materials, advanced 
propulsion, power generation, energy storage and high bandwidth 
communications. With a focus on such potentially revolutionary 
technologies, success is not expected with each investment; however, on 
the whole, and over time, dramatic advances in space technology 
enabling entirely new NASA missions and potential solutions to a wide 
variety of our society's grand technological challenges are 
anticipated.
    A Crosscutting Capabilities program element matures a small number 
of technologies that are of benefit to multiple customers to flight 
readiness status. Technical risk, technology maturity, mission risk, 
customer interest, and proposed cost are discriminators planned for use 
in the selection process. For infusion purposes, proposing teams are 
required to have a sponsor willing to cost share a minimum of 25 
percent of the planned development effort. With objectives analogous to 
the former New Millennium program, NASA will pursue flight 
demonstrations not only as standalone missions, but also as missions of 
opportunity on planned NASA missions as well as international and 
commercial space platforms. The Commercial Reuseable Suborbital 
Research Program (which provides suborbital flight opportunities for 
technology demonstrations, scientific research and education), the 
Facilitated Access to the Space environment for Technology (FAST) 
project (which focuses on testing technologies on parabolic aircraft 
flights that can simulate microgravity and reduced gravity 
environments) and the Edison Small Satellite Demonstration Missions 
project (which develops and operates small satellite missions in 
partnership with academia). are also included in this program element.
    NASA has had past success in the development of game-changing 
technologies and the transfer of its products and intellectual capital 
to industry. As an example, consider the Mars Pathfinder mission of the 
early 1990s. In addition to accomplishing its science and technology 
objectives, Mars Pathfinder established surface mobility and ground 
truth as important exploration principles, created a groundswell of 
interest and a foundational experience for a new generation of Mars 
scientists and engineers, re-engaged the public with Mars as a 
destination worthy of exploration, led to the creation of NASA's Mars 
program and establishment of a Mars program budget line, and led to a 
wide spectrum of small missions to Mars, the asteroids, comets and 
other bodies in our solar system. For NASA's robotic exploration 
program, Mars Pathfinder was clearly a game-changer. In a more recent 
example, consider NASA's recent improvements to thermal protection 
system (TPS) materials through an Advanced Capabilities development 
project. Over 3 years, a NASA-industry team raised the TRL of 8 
different TPS materials from 5 different commercial vendors, eventually 
selecting the best as the system for the Orion heat shield. In addition 
to providing a heat shield material and design for Orion on time and on 
budget, this Advanced Capabilities development project re-invigorated a 
niche space industry that was in danger of collapse, re-established a 
NASA competency able to respond to future TPS needs. For example, the 
team identified a potentially catastrophic problem with the planned MSL 
heat shield and remedied the problem by providing a viable alternate 
heat shield material and design within stringent schedule constraints. 
The mature heat shield material and designs have been successfully 
transferred to the commercial space industry, including the TPS 
solution for the SpaceX Dragon capsule. Beginning in FY 2011, the new 
NASA Space Technology program aims to strengthen and broaden these 
successful innovation examples across a wide range of NASA enterprises 
and significant national needs.
Space Operations
    The FY 2011 budget request includes $4,887.8 million for Space 
Operations, funding the Space Shuttle program, the International Space 
Station Program, and the Space and Flight Support program.
    The FY 2011 budget request for the Space Shuttle program is $989.1 
million. In 2009, the Space Shuttle flew five times, delivering to the 
ISS its final set of solar arrays and the equipment needed to support a 
six-person permanent crew; servicing the Hubble Space Telescope; 
completing the assembly of the three-module Japanese Kibo science 
laboratory; outfitting the Station with two external payload and 
logistics carriers, the Materials Science Research Rack-1, the Fluid 
Integrated Rack, the Minus Eighty-Degree Laboratory Freezer, a 
treadmill, and air revitalization equipment; and, delivering key 
supplies.
    In 2010, the Shuttle is slated to fly out its remaining four 
missions, including the recently completed STS-130 mission. In April, 
Shuttle Discovery will carry up critical supplies for the ISS using a 
Multi-Purpose Logistics Module (MPLM) and the Lightweight Multi-Purpose 
Experiment Support Structure Carrier (LMC). Atlantis will launch in May 
with the Russian Mini-Research Module-1, as well as the Integrated 
Cargo Carrier--Vertical Light Deployment (ICC-VLD). This summer, 
Endeavour will carry the Alpha Magnetic Spectrometer (AMS) and attach 
it to the Station's truss structure. The AMS is a particle physics 
experiment, which will use the unique environment of space to advance 
knowledge of the universe and contribute to understanding the 
universe's origin. AMS is presently undergoing critical thermal and 
electrical testing at the European test facilities in the Netherlands. 
If these tests are successful, AMS will ship to KSC in May for the July 
launch. The final Shuttle mission, STS-133, is targeted for September 
of this year. Discovery will carry supplies to ISS, as well as an MPLM 
that will be installed on ISS as a permanent module, expanding the 
Station's storage volume. This flight will mark the completion of ISS 
assembly.
    For almost 30 years, the Space Shuttle has carried U.S. and 
international astronauts into orbit; played a key role in the 
construction, outfitting, and resupply of the ISS; serviced the Hubble 
Space Telescope five times; served as an Earth-orbiting laboratory 
through the Spacelab and SpaceHab missions; and deployed a diverse 
array of payloads, including science probes and research experiments 
(such as the Magellan mission to Venus and Earth-orbiting tether 
experiments), communications satellites; and even student projects. 
NASA recognizes the role the Space Shuttle vehicles and personnel have 
played in the history of space activity, and looks forward to 
transitioning key workforce, technology, facilities, and operational 
experience to a new generation of human spaceflight exploration 
activities.
    FY 2011 will be the first full year of major Space Shuttle Program 
(SSP) transition and retirement (T&R) activities. T&R is focused on the 
retirement of the SSP and the efficient transition of assets to other 
uses once they are no longer needed for safe mission execution. These 
activities include identifying, processing, and safing hazardous 
materials, and the transfer or disposal of SSP assets, including the 
preparation of Orbiters and other flight hardware for public display. 
T&R also covers severance and retention costs associated with managing 
the drawdown of the SSP workforce.
    A key element of America's future in space is the International 
Space Station. The FY 2011 budget request for the International Space 
Station Program is $2,779.9 million. As of May 2009, the ISS has been 
able to support a six-person permanent crew, and during the STS-127 
mission last July, the Station hosted 13 astronauts representing the 
five space agencies in the ISS partnership, including those of the 
United States, Russia, Japan, Europe and Canada. The three major 
science labs aboard ISS were completed in 2009 with the delivery of the 
Exposed Facility of the Japanese Kibo module. In addition, the first 
flight of Japan's H-II Transfer Vehicle (HTV) was successfully carried 
out last fall, adding a new cargo-carrying spacecraft to the fleet.
    This year will mark the completion of assembly of the ISS--the 
largest crewed spacecraft ever assembled, measuring 243 by 356 feet, 
with a habitable volume of over 30,000 cubic feet and a mass of 846,000 
pounds, and powered by arrays which generate over 700,000 kilowatt-
hours per year. The ISS represents a unique research capability aboard 
which the United States and its partner nations can conduct a wide 
variety of research in biology, chemistry, physics and engineering 
fields which will help us better understand how to keep astronauts 
healthy and productive on long-duration space missions. Funding for ISS 
research is also reflected in the Exploration budget request and in the 
Space Technology budget request.
    The FY 2011 budget request includes a dramatic increase in the 
Nation's investment in the research and capabilities of the ISS. With 
this investment, NASA will be able to fully utilize the ISS and 
increase those capabilities through upgrades to both ground support and 
onboard systems. Importantly, this budget extends operations of the 
ISS, likely to 2020 or beyond. This budget makes a strong commitment to 
continued and expanded operation of the ISS. The United States as 
leader in space made this first step and will now work with the other 
ISS international partners to continue International operation of the 
ISS. ISS can inspire and provide a unique research platform for people 
worldwide.
    ISS research is anticipated to have terrestrial applications in 
areas such as biotechnology, bioengineering, medicine and therapeutic 
treatment. The FY 2011 budget request for ISS reflects increased 
funding to support the ISS as a National Laboratory in which this 
latter type of research can be conducted. NASA has two MOUs with other 
U.S. Government agencies, and five agreements with non-government 
organizations to conduct research aboard the ISS. NASA intends to 
continue to expand the community of National Laboratory users of the 
ISS. This budget request supports both an increase in research and 
funding for cargo transportation services to deliver experiments to the 
Station.
    ISS can also play a key role in the demonstrations and engineering 
research associated with exploration. Propellant storage and transfer, 
life support systems, and inflatable technology can all benefit by 
using the unique research capabilities of ISS.
    In addition to supporting a variety of research and development 
efforts, the ISS will serve as an incubator for the growth of the low-
Earth orbit space economy. NASA is counting on its Commercial Resupply 
Services (CRS) suppliers to carry cargo to maintain the Station. The 
first CRS cargo flights will begin as early as 2011. It is hoped that 
these capabilities, initially developed to serve Station, may find 
other customers as well, and encourage the development of further space 
capabilities and applications. The suppliers involved will gain 
valuable experience in the development and operation of vehicles that 
can: (1) fly to the ISS orbit; (2) operate in close proximity to the 
ISS and other docked vehicles; (3) dock to ISS; and, (4) remain docked 
for extended periods of time.
    As a tool for expanding knowledge of the world around us; advancing 
technology; serving as an impetus for the development of the commercial 
space sector; demonstrating the feasibility of a complex, long-term, 
international effort; and, perhaps most importantly, inspiring the next 
generation to pursue careers in science, technology, engineering, and 
mathematics, the ISS is without equal.
    The FY 2011 budget request for Space and Flight Support (SFS) is 
$1,119.0 million. The budget request provided for critical 
infrastructure indispensable to the Nation's access and use of space, 
including Space Communications and Navigation (SCaN), the Launch 
Services Program (LSP), Rocket Propulsion Testing (RPT), and Human 
Space Flight Operations (HSFO). The SFS budget also includes a new and 
significant investment in the 21st Century Space Launch Complex, 
intended to increase operational efficiency and reduce launch costs by 
modernizing the Florida launch capabilities for a variety of NASA 
missions, which will also benefit non-NASA users.
    In FY 2011, the SCaN Program will begin efforts to improve the 
robustness of the Deep Space Network (DSN) by initializing the 
replacement of the aging 70m antenna capability with the procurement of 
a 34m antenna. The NASA DSN is an international network of antennas 
that supports interplanetary spacecraft missions and radio and radar 
astronomy observations for the exploration of the solar system and the 
universe. The DSN also supports selected Earth-orbiting missions. In 
the third quarter, a System Requirements Review (SRR) of the Space 
Network Ground Segment Sustainment (SGSS) Project will be conducted, 
and the Program will have begun integration and testing of the Tracking 
and Data Relay Satellites (TDRS) K&L. In the area of technology, the 
Communication Navigation and Networking Reconfigurable Testbed 
(CoNNeCT) will be installed on ISS. This test bed will become NASA's 
orbiting SCaN laboratory on the ISS and will validate new flexible 
technology to enable greater spacecraft productivity. NASA will also 
have its first optical communication system ready for integration into 
the Lunar Atmosphere and Dust Environment Explorer (LADEE) spacecraft. 
In addition, the Disruption Tolerant Networking (DTN) protocols will 
complete their development at the end of FY 2011 and should be ready 
for operations throughout the solar system. The SCaN operational 
networks will continue to provide an unprecedented level of 
communications and tracking services to over 75 spacecraft and launch 
vehicles during FY 2011.
    The LSP has six planned NASA launches in FY 2011 including Glory, 
Aquarius, Juno, Nuclear Spectroscopic Telescope Array (NuSTAR), NPOESS 
Preparatory Project (NPP) and the Gravity Recovery and Interior 
Laboratory (GRAIL) mission. In addition to processing, mission 
analysis, spacecraft integration and launch services, LSP will continue 
to provide support for the development and certification of emerging 
launch services.
    The RPT Program will continue to provide test facility management, 
and provide maintenance, sustaining engineering, operations, and 
facility modernization projects necessary to keep the test-related 
facilities in the appropriate state of operational readiness. These 
facilities will support many of the tests planned under ESMD's 
propulsion research program.
    HSFO includes Crew Health and Safety (CHS) and Space Flight Crew 
Operations (SFCO). SFCO will continue to provide trained crew for the 
manifested Space Shuttle requirements, four ISS long-duration crew 
rotation missions. CHS will identify and deliver necessary core medical 
capabilities for astronauts. In addition, CHS will gather astronaut 
medical data critical for determining medical risk as a result of space 
flight and how best to mitigate that risk.
    The 21 st Century Launch Complex initiative will primarily benefit 
NASA's current and future operations at the Kennedy Space Center (KSC), 
but will also help to improve KSC launch operations for future and 
current non-NASA users of the range, with the goal of transforming KSC 
into a modern facility. This new initiative focuses on upgrades to the 
Florida launch range, expanding capabilities to support commercial 
launch providers, such as commercial cargo flights and future 
commercial crew flights in support of ISS, and expendable launch 
vehicles in support of the Science mission directorate payloads and 
robotic precursor missions. Additional areas under consideration 
include modernization activities to support safer and more efficient 
launch operations; enhancing payload processing capabilities through 
capacity increases, improvement, and modernization, in addition to 
potentially relocating the KSC perimeter where appropriate and 
feasible, to enable certain existing private sector facilities to lie 
outside the security perimeter, thus making it far more convenient to 
use those facilities; environmental remediation to reduce the impact on 
the surrounding areas; and supporting the modernization of the launch 
range capabilities. We will fully coordinate this activity with all 
users of the range.
Education
    The FY 2011 budget request for education is $145.8 million. This 
budget request furthers NASA's commitment to inspiring the next 
generation of explorers in the STEM disciplines. In FY 2011, NASA will 
continue to strongly support the Administration's STEM priorities and 
will continue to capitalize on the excitement of NASA's mission to 
stimulate innovative solutions, approaches, and tools that inspire 
student and educator interest and proficiency in STEM disciplines. This 
strategy will increase the distribution and impact of NASA progressive 
opportunities for elementary and secondary teachers, university 
faculty, students of all ages, and the public.
    In FY 2011, NASA will support the Administration's STEM education 
teaching and learning improvement efforts, including Race to the Top 
and Educate to Innovate, while continuing efforts to incorporate NASA 
content into the STEM education initiatives of other Federal agencies. 
This summer, NASA will launch Summer of Innovation, an intensive STEM 
teaching and learning program targeted at the middle school level that 
includes follow-on activities during the school year. NASA content and 
products will be incorporated into evidence-based summer learning 
programs across participating states with the goal of improving student 
academic performance and motivating them to pursue further education 
and successful careers. The FY 2011 request includes funding for Summer 
of Innovation over a three-year period.
    NASA will also continue to partner with academic institutions, 
professional education associations, industry, and other Government 
agencies to provide K-12 teachers and university faculty with the 
experiences that capitalize on the excitement of NASA discoveries to 
spark their student's interest and involvement. Examples of such 
experiences are the NASA student launch initiatives and other hands-on 
payload development and engineering opportunities. The FY 2011 budget 
request also places increased emphasis on Education and cyber-learning 
opportunities and expands teacher pre-service, professional development 
and training programs. Additionally, NASA seeks to prepare high school 
students for undergraduate STEM study through experiences that blend 
NASA research and engineering experiences with classroom study and 
mentoring. Another Agency education goal is to broaden community 
college participation in NASA research and STEM workforce development.
    In FY 2011, the Agency aims to increase both the use of NASA 
resources and the availability of opportunities to a diverse audience 
of educators and students, including women, minorities, and persons 
with disabilities. An example is the Innovations in Global Climate 
Change Education project that will be implemented within the Minority 
University Research and Education Program. The project will seek 
innovative approaches to providing opportunities for students and 
teachers to conduct research using NASA data sets to inspire 
achievement and improve teaching and learning in the area of global 
climate change.
Cross-Agency Support
    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the Agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing Agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes two themes: Center 
Management and Operations and Agency Management and Operations. The FY 
2011 budget request includes $3,310.2 million for Cross Agency Support.
    NASA's FY 2011 budget request includes $2,269.9 million for Center 
Management and Operations, which funds the critical ongoing management, 
operations, and maintenance of nine NASA Centers and major component 
facilities. NASA Centers continue to provide high-quality support and 
the technical talent for the execution of programs and projects.
    NASA's FY 2011 budget request includes $1,040.3 million for Agency 
Management and Operations, which funds the critical management and 
oversight of Agency missions, programs and functions, and performance 
of NASA-wide activities, including five programs: Agency Management, 
Safety and Mission Success, Agency Information Technology Services, and 
Strategic Capabilities Assets Program. Beginning in FY 2011, activities 
associated with the Innovative Partnerships Program are transferred to 
the Space Technology program. The FY 2011 budget request provides:

  <bullet> $428.1 million for Agency Management, which supports 
        executive-based, Agency-level functional and administrative 
        management requirements. Agency Management provides for the 
        operational costs of Headquarters as an installation; 
        institutional and management requirements for multiple Agency 
        functions; assessment and evaluation of NASA program and 
        mission performance; strategic planning; and independent 
        technical assessments of Agency programs.

  <bullet> $201.6 million for Safety and Mission Success activities 
        required to continue strengthening the workforce, training, and 
        strengthening the fundamental and robust checks and balances 
        applied on the execution of NASA's mission, and to improve the 
        likelihood for safety and mission success for NASA's programs, 
        projects, and operations. The engineering, safety and mission 
        assurance, health and medical independent oversight, and 
        technical authority components are essential to NASA's success 
        and were established or modified in direct response to many of 
        the key Challenger and Columbia accident board recommendations 
        for reducing the likelihood for future accidents. Included 
        under Safety and Mission Success is the Software Independent 
        Verification and Validation program.

  <bullet> $177.8 million for Agency Information Technology Services, 
        which encompasses cross-cutting services and initiatives in IT 
        management, applications, and infrastructure necessary to 
        enable the NASA Mission and improve security, integration and 
        efficiency of Agency operations. NASA plans significant 
        emphasis on continued implementation of five major Agency-wide 
        procurements to achieve the following: (1) consolidation of IT 
        networks leading to improved network management, (2) 
        consolidation of desktop/laptop computer services and mobile 
        devices to improve end-user services, (3) data center 
        consolidation to provide more cost-effective services, (4) 
        Agency public website management to improve access to NASA data 
        and information by the public, and (5) Agency business systems 
        development and maintenance to provide more efficient and 
        effective business systems. NASA will also continue to improve 
        security incident detection, response, and management through 
        the Security Operations Center.

  <bullet> $29.8 million for the Strategic Capabilities Assets Program 
        (SCAP). This program funds the costs required to sustain key 
        Agency test capabilities and assets, such as an array of flight 
        simulators, thermal vacuum chambers, and arc jets, to ensure 
        mission success. SCAP ensures that assets and capabilities 
        deemed vital to NASA's current and future success are sustained 
        in order to serve Agency and national needs. All assets and 
        capabilities identified for sustainment either have validated 
        mission requirements or have been identified as potentially 
        required for future missions.
Construction and Environmental Compliance and Restoration
    NASA Construction and Environmental Compliance and Restoration 
provides for the design and execution of all facilities construction 
projects, including discrete and minor revitalization projects, 
demolition for closed facilities, and environmental compliance and 
restoration. The FY 2011 budget request includes $397.4 million for 
Construction and Environmental Restoration, made up of:

  <bullet> $335.3 million for the Construction of Facilities (CoF) 
        Program, which funds capital repairs and improvements to ensure 
        that facilities critical to achieving NASA's space and 
        aeronautics program are safe, secure, environmentally sound, 
        and operate efficiently. The Agency continues to place emphasis 
        on achieving a sustainable and energy-efficient infrastructure 
        by replacing old, inefficient, deteriorated building with new, 
        efficient, high performance buildings that will meet NASA's 
        mission needs while reducing future operating costs.

  <bullet> $62.1 million for Environmental Compliance and Restoration 
        (ECR) Program, which supports the ongoing cleanup of current or 
        former sites where NASA operations have contributed to 
        environmental problems. The ECR Program prioritizes these 
        efforts to ensure that human health and the environment are 
        protected for future missions. This program also supports 
        strategic investments in environmental methods and practices 
        aimed at reducing NASA's environmental footprint and lowering 
        the risks of future cleanups.
Conclusion
    Americans and people worldwide have turned to NASA for inspiration 
throughout our history--our work gives people an opportunity to imagine 
what is barely possible, and we at NASA get to turn those dreams into 
real achievements for all humankind. This budget gives NASA a roadmap 
to even more historic achievements as it spurs innovation, employs 
Americans in fulfilling jobs, and engages people around the world as we 
enter an exciting new era in space. NASA looks forward to working with 
the Subcommittee on implementation of the FY 2011 budget request.
    Mr. Chairman, thank you for your support and that of this 
subcommittee. I would be pleased to respond to any questions you or the 
other Members of the Subcommittee may have.

    Senator Nelson. And we will enter into the record the 
opening statement of the Ranking Member of the full Committee, 
Senator Hutchison.
    General Bolden, you've just made some news, because you 
have stated that the destination is Mars; that's the goal. Do 
you have, in what you have just stated, do you have the 
approval of your superiors?
    General Bolden. Sir, the words I used have been through 
every wicket I can think of, so it--I assume that that means I 
have approval to say that.
    Senator Nelson. All the way up through the wickets of the 
White House, as well.
    General Bolden. All the way up through the wickets of the 
White House, as well.
    And I would comment, Senator, that when we went to the 
Moon, we didn't know what we were doing, but the Moon's a 
couple days away, and so we felt confident that that would not 
be a problem. When we take on Mars, it's radically different, 
and it offers radically different challenges. So, I cannot give 
you, unfortunately--whereas, President Kennedy said he wanted 
us to go to the Moon and safely return humans in this decade, I 
wish that I could ask President Obama to do that. He could 
issue that challenge, but I can't tell him we can do that, 
because, at this particular time, I can't provide a date 
certain for the first human mission to Mars, because there are 
too many capabilities that we don't have in our kitbag. And so, 
I'm hopeful that, through the technology demonstrations and 
technology development that we will undertake with Mars as the 
focus of our design reference mission, that we'll be able to 
get there, hopefully, quicker than we would have before.
    Senator Nelson. Well, how will NASA determine the research 
priorities for a destination of Mars?
    General Bolden. Senator, over probably the last 20 years--
and I refrained from bringing in a stack of studies, that I'm 
certain you and your subcommittee members are very familiar 
with, that have been--that have come out over at least the last 
20 years. If you look at those studies and the technologies and 
capabilities that have been listed in all of them, they've been 
pretty consistent. And they have all been focused on getting 
humans to Mars. So, the big difference that we have today is 
that the President has decided that he wants to fund the 
research and development that's necessary to bring about those 
technologies and to give us those capabilities. So, I am 
confident that the budget that I've been given will allow us to 
do that.
    You commented about the difference between technology and 
heavy lift, the fact that there was more in technology than 
there was in heavy lift. I can use any vehicle to get things to 
orbit--to low-Earth orbit--to develop the kinds of technologies 
that we need. I don't need a heavy-lift launch vehicle, nor 
would I want to use a heavy-lift launch vehicle, to put a 
propellant storage demonstration in orbit; that would be a 
waste of the taxpayers money. I can use a Falcon, I can use a 
Taurus, I can use a Delta, an Atlas. I can use anything that 
can successfully get me to low-Earth orbit to get the 
technology demonstrators that I want to get there. So, that's 
why I think it's important to have more that we spend on 
technology development today than we do on the actual heavy 
lift itself. There will come a time that I will ask for more 
money on heavy lift.
    Senator Nelson. Well, I found some additional money that 
you can use, General Bolden. We've spent $9 billion on 
Constellation thus far, and in this budget is another $2.5 
billion to shut it down. If the Constellation program is 
canceled, how do we make sure that those valuable assets are 
integrated into the new program? And if the Constellation 
program is not shut down, how can we use that $2.5 billion that 
otherwise would have shut it down?
    General Bolden. Senator, no matter what happens to the 
Constellation program, what cannot be forgotten is the work of 
the dedicated men and women who made that program possible. And 
already, although I have asked that we take a really hard look 
inside--deep into the Constellation program to determine what 
technologies and capabilities may be there that we want to 
retain, I can give you examples of things that have already 
come out of the Constellation program that are going to 
transfer directly to commercial space.
    We had a thermal protection system study that was done 
under the Constellation Technology Development Program. The 
SpaceX Corporation, that is going to fly the Falcon 9, saw that 
technology and has adopted it. And so, they will actually use 
the thermal protection system, or a hybrid of it, on their 
vehicle. That came out of the Constellation program.
    When I had an opportunity to tour Launch Complex 40 and 
talk to the people who actually work on Falcon 9 from SpaceX, I 
discovered that they intend to use a pusher type of launch 
abort system. I asked them if they had had any information or 
had had an opportunity to discuss MLAS--the Max Launch Abort 
System that our folks at NASA had developed and tested--
successfully tested out of Langley, at the Wallops Flight 
Center. They told me they did not know about it. So, I 
encouraged them to go talk to the people at Langley, because 
that is a technology--that is a capability that was developed 
out of the Constellation program that might be directly 
applicable to them. So, it was $9 billion, if that's the right 
figure, that has been very well invested, and it has already 
brought great returns to the American public, as well as to 
industry.
    Senator Nelson. And part of those returns, as you 
ultimately want to develop a heavy-lift vehicle, are the 
testing that's ongoing on the existing rocket--we don't have to 
call it what its name is; let's call it Rocket X. So, what's 
the value of the testing of a Rocket X in the R&D development 
of a heavy-lift vehicle?
    General Bolden. Senator, the--anytime you can--you know, 
there are some people who say you can never test enough. I 
happen to be one of those, but I am also quite aware of fiscal 
constraints to testing. In my past life, as a tester, you know, 
in--when I looked at--Hoot Gibson, who's sitting behind me, 
will tell--we both, during our time as test pilots--you know, 
you look at your test plan, and you always wanted to add one 
more flight so that you could say with a great degree of 
certainty that it was OK for some--for a normal pilot to go fly 
what you just finished testing. There's not enough money to do 
that. So, we need to look at prudent ways to test as much as we 
can, but not too much. And so, any testing that I would be 
allowed to do in development of a new heavy-lift launch system 
would be fantastic--within fiscal constraints.
    Senator Nelson. Senator Vitter?
    Senator Vitter. Thanks, Mr. Chairman.
    Mr. Administrator, you took exception to my statement about 
the Deputy Administrator; you said you wanted to explore that. 
So, let's explore that. By the way, I agree completely with the 
Chairman's very strong positive comments about you, and it's 
for that reason that I don't think you were the original or 
prime architect of this budget at all.
    So, let's explore the question. Who, within NASA or the 
Administration, was the original prime architect of this 
radical new budget?
    General Bolden. Sir, without going into predecisional 
discussions or predecisional information, I can tell you that I 
participated in the construction of the budget. That's part of 
my responsibility as the NASA Administrator. So, I have to 
take--you know, if you want look at somebody to blame--if 
that's what you want to call it--as the NASA Administrator, I 
represent the inputs that we made to the budget. But----
    Senator Vitter. Mr. Administrator, you're confirming 
everything I just said. Let me ask the question again. Who is 
the prime, original author of this radical budget vision?
    General Bolden. You know, Senator, I was a contributor to 
this ``radical budget,'' as you----
    Senator Vitter. Mr. Administrator----
    General Bolden.--want to call it.
    Senator Vitter.--you took umbrage----
    General Bolden. Oh, sir, my comment----
    Senator Vitter.--when I said----
    General Bolden.--and if--yes, sir.
    Senator Vitter.--about my comment about Deputy 
Administrator Garver.
    General Bolden. Yes, sir.
    Senator Vitter. Are you prepared to completely refute what 
I think is the fact there?
    General Bolden. What I--and I'm not refuting anything, 
Senator. I just wanted to say that I think----
    Senator Vitter. I didn't think you were.
    General Bolden.--I think Mrs. Garver was misrepresented in 
leaving the impression that she is an enemy of human 
spaceflight or she is an enemy of NASA or anything of that 
nature. I have found her to be a very competent, capable 
deputy. We have--we come from different backgrounds.
    I think when I met with you earlier, I described two 
radical groups, one group being those who are radically in 
favor of Constellation, those who are radically in favor of 
commercial spaceflight. And if you ask anybody out of either of 
those two groups, they will tell you, ``Don't listen to those 
guys over there, because they're stupid. You can't go that 
way.'' I'm trying to get somewhere in the middle.
    And, you know, we both come from different backgrounds, and 
I appreciate that. I tell people in my meetings every day, ``I 
don't ever want to walk away from a meeting when I have a 
unanimous opinion about a decision we've made,'' because it 
means either everybody's been intimidated by something I said, 
or they've given up that they can reason with me, and they've 
sided with me for some unknown reason. I always want there to 
be difference of opinion among my leaders, because it means 
that we're at least keeping an open mind and we're looking for 
the optimal solution for the Nation. And Lori is tremendous in 
providing me insights that I don't have about commercial space.
    Senator Vitter. OK, so just to be clear, are you refuting, 
or not, my conclusion that she was a prime leading architect of 
this?
    General Bolden. Senator, I can't refute that, because I 
don't--you know, there are--there's OMB, OSTP----
    Senator Vitter. OK.
    General Bolden.--the Executive Office of the President; we 
all contributed to the budget.
    Senator Vitter. Mr. Administrator, you highlighted a top 
goal of this budget, to inspire schoolchildren.
    General Bolden. Yes, sir.
    Senator Vitter. Talked about middle school kids. And I'm 
looking for that inspiring nugget. I haven't found it yet.
    General Bolden. Senator, I can give you the----
    Senator Vitter. What is the quote?
    General Bolden.--inspiring----
    Senator Vitter. Quote----
    General Boldern. Yes, sir.
    Senator Vitter. Quote, ``Mars is the focus of our design 
reference mission,'' close quote. I can tell you, I have two 
seventh-graders at home; that's not going to inspire them. So, 
what----
    General Bolden. Senator, I don't want----
    Senator Vitter. What is the quote?
    General Bolden. Senator, I don't want a seventh-grader to 
think about Mars. I want a seventh-grader to get excited when, 
in his or her classroom, they have an opportunity to talk, 
personally, with astronauts on the International Space Station, 
as we frequently have them do almost every month.
    When the President communicated with Expedition 22 
increment astronauts and the STS-130 crew last week, and was 
surrounded by school students who had an opportunity to 
communicate with them, they were inspired. I can--trust me--I 
could look at their eyes. The President is inspired, when he 
has a opportunity to do that. We are going to inspire children 
by having an opportunity for them to interface and interact 
with astronauts on the International Space Station now, thanks 
to this budget, until 2020. We would not have been able to do 
that before.
    And it doesn't make any difference how an astronaut gets to 
orbit. There are two things. There's access and there's 
exploration. I need a heavy-lift launch vehicle so I can go do 
exploration. I don't--you know, I want redundant, reliable 
access to space. I don't think there is any difference of 
opinion in this room in that regard. You know, whether I get to 
space on an Ares or an Atlas or a Delta or a Falcon or a 
Taurus, that's immaterial. What is important is that we have an 
American-made capability to get astronauts to low-Earth orbit 
so that they can do developmental work on the International 
Space Station that, one of these days, is going to make it 
possible for us to go to Mars, because we'll understand a 
little bit more about bone loss, we'll understand a little more 
about muscle mass loss, we'll understand a little bit more 
about what disturbs the neural vestibular system. That's what I 
need. It doesn't matter--no one will know how an astronaut got 
to the International Space Station, 10 years from now. They 
won't know what vehicle they went on, nor will they care.
    Senator Vitter. Well, Mr. Administrator, we--I think we 
just have a disagreement here. You said, you don't want 
seventh-graders to think about Mars. I absolutely want seventh-
graders to think about Mars, because that is the sort of thing 
that will inspire them. And, you know, the Shuttle, the 
International Space Station--those are great things, and those 
people and those astronauts are heroes--don't get me wrong.
    General Bolden. Yes, sir.
    Senator Vitter. But, to my seventh-graders, that is, to use 
their language, ``so last week.'' That is not----
    [Laughter.]
    General Bolden. Senator, I--you know----
    Senator Vitter.--going to inspire them. That is not going 
to inspire them.
    General Bolden. Senator, with all due respect, I think you 
underestimate your kids. They--you know, when I talk to school 
kids and they tell me they want to be an astronaut, ``What do I 
need to do to be an astronaut?'' I tell them--the first thing I 
say is, ``Forget it.'' And then they look at me real strange. I 
said, ``Forget it, because, unless you study and work and get a 
technical background, a technical undergraduate degree, you 
have no hope of becoming an astronaut. So, I want you to go to 
school, I want you to be in class, I want you to study really 
hard, I want you to do the absolute best you can do, and I want 
you to go to college, and I want you to get an undergraduate 
technical degree. And if you want to be a pilot and you want to 
be like me, and that's all you can do, then go to the military. 
If you want to be a scientist or an engineer or somebody who's 
going to do the hard stuff in space, get a Ph.D. or a master's, 
and then think about being an astronaut.''
    So, I think your kids understand that. And as long as I can 
keep them interested in staying in school and learning a lot of 
science and math, they're going to go to Mars; they're going to 
enable us to go to Mars.
    Senator Vitter. Well, I'll be honest with you, I'm afraid 
they're going to look at the messages of this budget, and if 
they want to be an astronaut, they're going to conclude, 
``Forget it.'' That's my concern.
    General Bolden. Yes, sir.
    Senator Vitter. Mr. Administrator, what relation does this 
very dramatic change of vision have with anything laid out in 
the Augustine Commission? I mean, point us to a page of the 
Augustine Commission report that really suggests anything like 
this.
    General Bolden. Senator, with all due respect, you know, I 
don't really think that this is a radical departure from--it's 
not a radical departure from the vision for space exploration, 
if I can say, and it's not a radical departure from any other 
visions or dreams that people have had about going to space. 
What is different is, it funds what is necessary to realize 
that vision. I--somebody once told me a vision without 
resources is a hallucination. If you look at where we were 
prior to the 2011 budget, we were living a hallucination. We 
had a great--I won't use the term ``great''--we had a vision 
for getting to--back to the Moon, getting to Mars and other 
places in our solar system, but we did not have the funding to 
do it; we didn't have the assets to do it. We now have the 
assets to make an orderly progression to getting humans to a 
place like Mars, and I'm confident that we can do that.
    Senator Vitter. Again, I just disagree. I believe the 
consensus opinion reaction to this budget is that it is a 
radical departure. And if vision without resources is a 
hallucination, resources without vision is a waste of time and 
money. And that's what I think this budget represents.
    Mr. Administrator, a final question. You said you're a 
member of the NASA family, and you are. And I absolutely know 
that you want all the best for those folks, and feel for them 
and are supportive of them, but this budget, canceling every 
major internal human spaceflight program in sight--most 
obviously, Constellation--extends their gap, as I said, to 
infinity. So, what do you tell those people in the NASA family?
    General Bolden. Senator, as I have told them in the last 2 
weeks or so since the budget came out, I tell them I don't know 
how they feel.
    My kids are 38 and 33, and they're out of school, So, I 
don't know what a young engineer with a 15-year-old kid feels 
like, right now. I know they're hurting. And if they happen to 
be a civil servant, I can tell them that they're going to be 
OK, because they're going to have a job. But then, as a young 
lady told me at Johnson Space Center, ``I don't want a job. I 
want to be able to come to work every day and feel that I'm 
making a difference.''
    And so, I can tell them, as I have, that I'm going to do 
everything in my power to try to make sure that we develop some 
programs that are going to help us get to where they all--where 
we all want to go, as soon as possible.
    I don't think we would have ever gotten there with the 
Constellation program set up and funded the way it was. I don't 
think anyone said Constellation was a bad program; I haven't 
read that anywhere. But, I think that we can develop 
capabilities that will allow--potentially allow us to get back 
to the Moon and--because we are going to go back to the Moon--
and will enable us to get to Mars much quicker than we would 
have under the ``program of record.'' The program of record 
would have ended the Space Station in 2015. And if we had 
developed Ares, Ares would have had nowhere to go, because the 
Space Station would have been defunct.
    The President has given us authorization to go and talk to 
our international partners and get their concurrence in 
extending the International Space Station to 2020. That at 
least gives us hope that we will have someplace for our 
researchers to go for another 5 years to help us try as hard as 
we can to fill the gap on some of these capabilities that keep 
us from being able to go to Mars right now.
    If you gave me an infinite pocket of money--pot of money, I 
could not get a human to Mars within the next 10 years, because 
there are just some things that we don't know. We don't 
understand the radiation environment. We don't understand fully 
what happens to the human body in transiting for 8 months. What 
I would like to do is develop an in-space technology that 
allows us to go to Mars in days instead of months. And I am 
told by very good friends of mine, people that Senator--you 
know, Senator Nelson has had an opportunity to live with for a 
while, who think that we can go to Mars in days, at least half 
the time that it would take us right now. But, we've got to 
invest in that technology. And we're, oh, so close, but we're 
just not there yet. So, there are things that we have to do and 
there are technologies that we have to develop if we want to be 
able to realize any of these dreams.
    And that--you know, I--that's not a radical departure from 
anything. It's just a departure from the way that we were 
trying to get there. And the way we were trying to get there, 
I'm just not confident was going to get us there anytime soon, 
if ever, in today's fiscal environment.
    Senator Vitter. Well, let me say that I'm not sitting here 
defending the previous vision and the budget that was attached 
to it; it was inadequate. But, I believe this new budget is a 
big step backward, because of the, you know, fundamental 
problems I've tried to underscore.
    General Bolden. Yes, sir.
    Senator Vitter. Thank you.
    General Bolden. Yes, sir.
    Senator Nelson. Senator Vitter, you and I had a private 
conversation over this issue of who developed the budget, and I 
shared with you my private concern. And since you've shared, 
publicly, your private concern, I'll just share mine.
    [Laughter.]
    Senator Nelson. I don't think it's any different than the 
George Bush Administration. I think OMB is running the space 
program, because it designs the budget. And this is where I 
think that the President has to step out and take control and 
exert and offer the leadership on the goal that has now been 
articulated by the Administrator of NASA, of which he had White 
House approval to say, today, which is Mars. If you leave it to 
OMB, if we get there, it's going to be a long time coming. But, 
if you have a Presidential decision that that's what we're 
going to do, and then he turns to his Marine general and says, 
``General Bolden, make it happen,'' then things can start 
popping. And that's where I think the genesis of this budget 
is.
    Senator Vitter. Well, I certainly hope that we have a 
change and a new direction as you're working toward, so I 
certainly hope that. I guess I don't think it's primarily from 
OMB, because this budget has some significant amount of new 
money. So, if the goal is just to stay status quo on money or 
cut money, they could have done that a lot more dramatically. 
There is some significant new money here, but it's accompanied 
by a dramatic--radical, in my opinion--change of vision and 
approach, which I don't think suggests OMB simply counting 
beans. But--that's my honest reaction--but, I certainly hope we 
get the change and the new direction you're describing.
    Senator Nelson. And that's in the context of, they were 
making decisions with the backdrop of the Augustine Commission.
    So, since there is new money here, that gives us the 
opportunity to perfect this budget.
    Senator LeMieux?

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    General thank you for being here today, and thank you for 
your service to our country.
    I want to join my colleagues in my disappointment about 
this budget. And I can tell from listening to you that this is 
difficult for you, especially as it affects the NASA family 
and, as my colleague Senator Nelson knows better than anyone, 
what impact this is going to have on our home State of Florida.
    I want to go back to something that the President of the 
United States said when he was seeking the office of the 
presidency. He was in Florida as candidate Obama, and he spoke 
about the space program. He said, America will need to lead the 
world to long-term exploration of the Moon and Mars. Even 
though I think you have done your best to give us some 
assurances that we eventually will go to Mars someday, I have 
great concern about not having a goal for NASA and canceling 
existing programs that would put us on a path to get us beyond 
lower Earth orbit further, without a destination and goal for 
NASA, I am concerned that the agency will simply revert to 
directionless spending, making the budget situation and 
justification even worse next year.''
    A lot has already been said about the frustration of the 
members of this committee, and we certainly are going to look 
more at this budget, and we're going to look more at our 
priorities.
    It is not as if this Administration doesn't know how to 
spend money. The last 2 years, the combined deficit exceeded 
the deficit of the past 8 years, combined. This year, for 2011, 
the Administration is proposing a $3.8-trillion budget. We're 
going to have $2.2 trillion in revenues. So, for this 
Administration with respect to NASA, it's not a question of 
money; it's a question of priorities. And if we are going to 
still be the world's leader in space exploration and not 
abdicate that role to others who would certainly like to 
fulfill that mandate, we have to have a goal, as Senators 
Nelson and Senator Vitter said, we have to have a target, we 
have to have a plan. And I have great concern about saying, 
``We will get there someday,'' and not knowing when that's 
going to be.
    But, let me ask you some specific questions about the 
cancellation of the Constellation program. Whose idea was it or 
who made that recommendation to cancel Constellation?
    General Bolden. Senator, the decision and the discussion 
that went on is predecisional, and I think, as you know, I am 
not at liberty to discuss predecisional information.
    Senator LeMieux. So, was there a consensus, then, of all 
those on the Committee, that this was the right thing to do?
    General Bolden. I'm not clear as to which committee----
    Senator LeMieux. In this decisionmaking process, was it 
unanimous that Constellation be canceled?
    General Bolden. Senator, I--as I said before, I am one 
component of the discussion that goes into any Presidential 
decision, and that information, or that predecisional 
discussion that I have with the President, I'm not at liberty 
to share with anyone. I don't know what the input was from 
others that I may never have talked to.
    Senator LeMieux. When you talk about a plan of getting to 
the Moon or Mars someday, what is your view of what the steps 
are going to be to get there?
    General Bolden. Sir, the steps are pretty complex and 
complicated. We've got to, first of all, sit down and look at 
where we are, in terms of the Constellation program and what 
was in it. We need to make sure that we don't throw away the 
baby with the bathwater. We need to determine what technologies 
and what smaller projects are worthy of retaining, because that 
will tell us how much we actually have to expend, in terms of 
brand new technology or brand new assets. So, that's the first 
step.
    The next step is actually to sit down and say, ``OK, the 
way that we generally start is, if we're trying to get to 
Mars--and it's--I will use Mars, since that is the ultimate 
destination--what do we need--from what we have, what we know 
exists today, what do we need to enable us to get there as soon 
as possible?
    Senator LeMieux. Are we going to go to the Moon first, 
before we go to Mars?
    General Bolden. You will--my thought is that you will 
inevitably have to go to the Moon, but you'll spend a lot of 
time on the International Space Station, now that we're going 
to have it there until 2020, developing some of the 
technologies. You know, whether humans need to go on--I will 
tell you, I don't think humans need to go and live on the Moon 
to do anything anymore. We have rovers that have come out of 
the Constellation program that enable us to put astronauts on 
the surface of the Moon for a month at a time, completely self-
sustained, and we don't have to build habitats. That in itself 
is a saving, and--savings--and that came from the Constellation 
program. But, this is one person's thinking, and I happen----
    Senator LeMieux. Yes, but you're the Administrator.
    General Bolden. Yes, but, sir, I don't----
    Senator LeMieux. I am sure it is up to you for some 
guidance.
    General Bolden. I'm giving you at least, you know, a 
beginning of an idea. But, I--you know, there's a lot of work 
that has to be done by our team to determine what the steps are 
that eventually get us to Mars, or get you to any destination.
    There are other things that we have to do, and that's the 
study of asteroids. And you may say, ``Well, why?'' Well, it's 
because they can do really bad things to Earth, and if one of 
them happens to head this way and we don't--either don't 
understand it or don't have a way to deflect it or something 
else, that's--part of my job is defense of the planet against 
things--not people, but things. We--all we needed to do was 
look at the Hubble image of Jupiter after it was impacted by an 
asteroid that left a scar that's several Earths in diameter; 
that's a very serious potential impact to Earth, or--no pun 
intended--but, a danger to all of us on the planet. So, we need 
to study asteroids a little bit better. Some people say that 
that would be one of the earlier missions. One of the earlier 
human missions would be to put an astronaut on an asteroid. You 
know, how we get there, I don't know yet, because these are 
things that, when I was in the Astronaut Office, and before 
coming back to NASA, people weren't talking about. So, these 
are new----
    Senator LeMieux. When do you think----
    General Bolden.--challenges that----
    Senator LeMieux.--you might have a plan, Administrator, for 
where we're going, when we're going to get there, and what the 
steps along the way will be?
    General Bolden. --Senator, I can tell you that, over the 
coming months, and not years, we'll develop a plan, and we will 
do that in conjunction with the Congress, with members of this 
committee and others that--for whom--to whom we're responsible, 
and we'll develop a plan over the coming months. But, you know, 
2 weeks after the budget rollout, I just--you know, I--I'm not 
capable of giving you a complete plan on something as important 
as how we get to an--get deeper into the solar system.
    Senator LeMieux. Well, I think the concern that we all have 
is that plans and money go together.
    General Bolden. Yes, sir.
    Senator LeMieux. So, when we're talking about $6 billion, 
or whatever sum it's going to be, the funding without a plan 
gives me concern.
    General Bolden. Yes, sir.
    Senator LeMieux. And the funding needs to drive the plan, 
and vice versa.
    General Bolden. Senator, I--you know, if I can use--let me 
use Constellation as an example and tell you where I was when I 
came into this office. You know, Constellation, at the time 
that I came into this office, was a lunar-centric program. And 
it was because, I think, there was not sufficient funding for 
NASA to go off and plan a way to go to Mars, so we kind of 
drifted toward the Moon again.
    Constellation, when I came into this office, did--while 
it--while landers and those types of things were an important 
part of the program, they weren't funded, so there was nothing 
there. You know, there was thought about how we were going to 
do it, but it wasn't there, because we didn't have the assets 
to do it.
    So, we were planning to send humans back to the lunar 
surface, and when I came in, we were talking about habitats and 
the like. I'm not sure we need--as I mentioned earlier--I'm not 
sure you need habitats on the lunar surface. I do know that you 
don't have to send humans to Mars to make it habitable, or 
least to begin to make it habitable for humans. We now have 
robots that can go do that. I would never send a human to do 
something in space that I had been--become confident a robot 
could go do.
    I served on the National Academy board to study saving 
Hubble, back in 2004, when one of my predecessors canceled the 
last servicing mission to the Hubble Space Telescope. And one 
of the witnesses who's going to come in the next panel, behind 
me, will--can probably share the same story. When we began our 
meeting, we all determined that, you know, the risk was too 
great to send humans, and we wanted to send a robotic mission 
to service Hubble. We talked to every expert we could find in 
this country and in some other countries, and we were told, 
``We'd love to help you, but the technology is just not there 
yet.'' And we finally convinced ourselves that the right thing 
to do was a human servicing mission, which we did incredibly 
well, at the end of last year, with STS-125. If we were to ask 
a panel today if they could do a human--a robotic servicing 
mission to Hubble, they would tell you, ``Yes, we can.'' I can 
take you to the Johnson Space Center today, and let--and 
introduce you to R2--that's a dexterous robot that, you know, 
can do things with its fingers that I can do with mine, that, 
in our work with General Motors, can now take a waterproof 
panel and put it on an automobile door and seal that panel in 
place using the same motions that we saw astronauts on 125 do 
putting the thermal shields on the outside of the telescope. We 
couldn't do that in 2004, when we--when that panel met and made 
the determination that it was worth risking humans; we're not 
there anymore.
    You know, technology develops out of need. As all of you 
have said, we do have to know where we're going. We want to go 
to Mars. We can't get there right now, because we don't have 
the technology to do it. We're sort of in the same conundrum 
that I and my panel members were with Hubble.
    Senator LeMieux. Respectfully, when President Kennedy 
challenged us to go to the Moon, we didn't have the technology, 
in that year, to go to the Moon. When we decided that we needed 
to build an atomic bomb, we didn't have the technology when we 
made that decision, but we pushed forward because we had a 
goal. And if we don't have a goal to go there by a specific 
time, it seems to me that the drive, both funding and 
purposefully, will be lacking. So, I think that's the concern 
that the folks have here on this committee and others.
    And let me ask you one more question if I may. You talked 
about getting to the Space Station, how are we going to get 
there?
    General Bolden. Sir, we're going to get there, for the next 
3 years, on Soyuz, the same way we did after the Columbia 
accident. That was the only way we had to get to the Space 
Station following the unfortunate loss of Columbia and seven 
crew members. We used Soyuz, we used our partners, the 
Russians. They have been reliable partners with us now for a 
number of years. We understand their system, we send astronauts 
there to train, who are able to fly their system. When we get--
we are going to make commercial----
    Senator LeMieux. This is the Russian system, right?
    General Bolden. This is the Russian system. And that--we 
are stuck where we are because we don't have an alternative 
American-made system. It is my hope that by 2015, 2016, we will 
have successfully enabled American industry to produce launch 
vehicles that can provide us routine, reliable access to low-
Earth orbit.
    Senator LeMieux. What about extending the Shuttle for that 
period?
    General Bolden. Sir, that is something that I would not 
recommend to the President and I could not honestly recommend 
to you. There is little value in trying to stretch the Shuttle, 
you know, until we have the capability--a commercial capability 
to get to low-Earth orbit.
    Again, funding is something--you know, it costs us 2-point-
some-odd-billion dollars a year to operate Shuttle. I would 
like to get out of the responsibility--the cost of the 
operation and the infrastructure that is costs us with Shuttle 
right now. There would be, potentially, recertification of the 
vehicle. It would be starting up production lines. There are a 
lot of things that make extension of the Shuttle not a very 
good idea, in my mind.
    Senator LeMieux. Well, you talked about these employees, 
these members of the NASA family, these rocket scientists, who 
are going to lose their jobs. I have a great concern, as do my 
colleagues, about reassembling those folks once they disperse. 
And those 7,000 folks, directly in Florida, and maybe 14,000 
others who are impacted, what are we going to say to them?
    General Bolden. Senator, it is my hope--you know, I will 
never be able to save all the jobs. We knew that we were going 
to have a bathtub, if you will, where we were going to lose 
people when the Shuttle program came to an end in 2010--decided 
a long time ago--and we were looking for ways to keep as many 
of them employed as we could. And that method, at the time, was 
going to be transitioning a portion of the workforce to the 
Constellation program, but we were never going to be able to 
retain the entire workforce. I'm hopeful that we'll be able to 
transfer some of them to the commercial sector.
    Senator Nelson mentioned, and I have talked to the people 
in the commercial sector, and I've told them I'm going to hold 
their feet to the fire. They have provided certain numbers for 
employment that they say commercial space will bring a minimum 
of this, a maximum of that. I can't make that happen, and they 
must. And I'll hold them--I will hold them responsible for 
that. So, when they promise jobs, they ought to be there. You 
know, I would say a question that you could ask, as a member of 
the Florida delegation, is, ``OK, tell me how many people are 
working right now from the State of Florida?'' That's the 
question I asked. And when they told me, ``None,'' I said, 
``That's unsatisfactory.'' And I got a note, you know, the next 
week that said, ``OK, we now have some Florida technical people 
working here, and we intend to convert it to 100-percent 
Florida by the time we're well into this program.'' I think 
those are the kinds of things that are important. You know, 
moving workers from one State to another does not help your 
State. And that's what I'm trying to do to help our workforce, 
is to make sure that someone speaks for them when we talk to 
the commercial entities.
    Now, again, I can't make them do anything. I'm--the 
President didn't empower me to order a commercial company to 
hire people from anywhere. But, I can sure encourage them to do 
all that they can to take advantage of the workforce that I 
have, take advantage of the infrastructure that we have at the 
Kennedy Space Center and at Cape Canaveral Air Force Station, 
and that's what I'm dedicated to do over the coming years.
    Senator LeMieux. Well, General, I appreciate your 
testimony.
    Mr. Chairman, thank you for holding this hearing.
    Senator Nelson. We're going to move to the second panel. Do 
you have any further comments?
    I just want to say, Senator LeMieux, one of the things that 
we pride ourselves on this panel--and I think it's applicable 
to the similar panel in the House of Representatives--is that 
space is a nonpartisan issue, and we always run this committee 
in a bipartisan way. And as we analyze all of these things that 
are going on, as you can hear by the comments of the three of 
us, there have been sharp differences that we have with the 
Administration's budget. But, we've got to put it in the proper 
context, also, of the circumstance that this Administration 
came into in which NASA had been starved, for the last half 
dozen years, of money, and it didn't have a rocket ready to go 
when the Space Shuttle was being shut down, so that there was 
this hiatus of a number of years that we were not going to have 
an American vehicle.
    So, we've aired our differences and our grievances with 
what has been proposed by the President. And I want this 
committee to be very active, along with our colleagues on the 
Appropriations Committee, as--to use a nice word--as we perfect 
this budget, because there is a great deal at stake here, and 
it's not only for our employees in our respective states, but 
it clearly is for this Nation being the leader in technology 
through its space exploration program. And we've got to make 
sure that it's right.
    So, with that, General Bolden, thank you very much for 
coming and being with us.
    And may I invite the second panel to please come up.
    General Bolden. Senator, thank you and your colleagues very 
much for allowing us to come before you today. And I really do 
look forward to continuing to work with you all. We'll get it 
right.
    [Pause.]
    Senator Nelson. Good afternoon.
    Well, we have a distinguished panel. I assure you, there 
won't be nearly as many fireworks as there were on the previous 
panel. But, each of you brings to the table exceptional depth 
of experience, each in your own way. And let me introduce this 
distinguished panel.
    Captain Robert Gibson, United States Navy, Retired, was 
known, in the Astronaut Office, as the best of the best. He's 
flown five times. He came by way of flying off of a carrier 
over Vietnam; went to Top Gun. He graduated first in the class 
in Top Gun. He was chosen for extraordinary missions and the 
first docking of an American spacecraft, the Space Shuttle, 
with the Russian Space Station Mir. And Captain Gibson--Hoot 
Gibson--was chosen to be the commander of that flight.
    Miles O'Brien is a 30-year broadcast news veteran, and he 
was, by good fortune and because of his expertise, chosen to be 
the first journalist in space, and then, by the misfortune of 
the Columbia disaster, never got to fly. He has worked for 
years and years as a correspondent, anchor, and producer. And 
one of the major flights--I think it was John Glenn's flight--
Miles co-anchored with Mr. Space, Walter Cronkite, on that 
historic achievement of a 77-year-old--the original space 
hero--being able to go back into space. And maybe space does 
turn back time, because if you see John Glenn now, who is 
closing in on 88 years of age, he looks as good as many people 
in their 60s.
    And then we have Michael Snyder. And Mike has been in NASA 
for years and years. He started at the Kennedy Space Center. He 
has been in the Orbiter Element Division at the Johnson Space 
Center. He has been an engineer in all kinds of subsystems and 
orbiter propulsion and power systems. For those propulsion and 
power systems, Mike has been one of the managers responsible 
for technical management of those systems. And we wanted 
somebody to testify today who has his on-the-line experience 
which is so valuable for us to constantly remind ourselves that 
we hear not just from the guys at the top; we want to hear from 
the guys on the line, as well.
    And then, Tom Young brings the gray hair to the panel, and 
we need that, because here's one of the most accomplished 
people in America, with regard to aerospace, defense, and 
space, and space applications. He is a member of the National 
Academy of Engineering. He is the former Director of the 
Goddard Space Center. He is a former President and Chief 
Operating Officer at Martin Marietta, and he has been a member 
of several other aerospace boards of directors.
    So, we couldn't have a better panel. And I'm going to go by 
alphabetical order, so we will start with Captain Hoot Gibson.

    STATEMENT OF CAPTAIN ROBERT ``HOOT'' GIBSON, USN (RET.) 
                   AND FORMER NASA ASTRONAUT

    Captain Gibson: Mr. Chairman, good afternoon.
    Thank you for inviting me to address this distinguished 
committee, and I'm going to say it's amazing how we have 
somewhat all focused on the same points.
    I was asked to talk about the Administration's new 
proposal, and specifically a few items: the proposal to cancel 
the Constellation program; the reliance on commercial 
spacecraft for low-Earth orbit; testing of Rocket X in support 
of a heavy-lift vehicle; and astronaut safety issues. And I'm 
going to speak from the perspective of a long-time member of 
that NASA family, and indeed, I feel somewhat that I still am; 
somewhat like a Marine--always a Marine.
    And, notwithstanding the comments that we heard today, the 
Administration's proposal opens more questions than it answers. 
What is the vision? Where are we going? And this abrupt change 
in NASA's exploration approach has no clear path; no 
destination, no milestone, no program focus; hence, none of the 
technology pull that is so important to real innovation. With 
no specific program, it becomes too easy, in the future, to 
cancel something called technology development as simply 
unfocused and unaffordable, and this could take NASA down a 
path that would completely end its human spaceflight endeavor.
    NASA must maintain global leadership in human spaceflight. 
With the International Space Station in low-Earth orbit now, 
NASA has established a frontier in space. To maintain the 
global leadership and core competencies in human spaceflight, 
NASA must now focus on establishing the new frontier, beyond 
low-Earth orbit.
    The Augustine panel had several things to say about that. 
This is a quote: ``There is now a strong consensus in the 
United States that the next step in human spaceflight is to 
travel beyond low-Earth orbit.'' Another quote: ``The Committee 
concluded that the ultimate goal of human exploration is to 
chart a path for human expansion into the solar system. 
Establishing this new frontier is inherently governmental, due 
to the risks that must be accepted by our professional 
astronauts and the huge investments required.'' This means, in 
spite of the words that we've heard today, NASA needs a 
destination--a goal. Whether it is Mars, Lagrange points, near-
Earth asteroids, or whatever, NASA must define the roadmap and 
the technological achievements required to achieve this goal. 
This becomes the flexible path, gives us the technology pull, 
and focuses our investment. NASA needs a heavy-lift vehicle to 
accomplish these goals.
    The specific questions. I want to start with astronaut 
safety. That was always a subject very dear to my heart, not 
just as an astronaut, but as a former member of the NASA family 
and a former chief astronaut. And, of course, Senator Mikulski, 
as we know, has some very specific feelings in that area, too. 
She said, ``Astronaut safety. The safety of our astronauts is 
my number one priority. This means whatever transportation 
system is chosen, it must protect our astronauts during launch, 
mission execution, reentry, including long-duration 
spaceflight.''
    As to the Space Shuttle part of this question, the 
Augustine Commission had several things to say there, too:
    ``Space operations are among the most complex and 
forgiving--unforgiving pursuits ever undertaken by humans. It 
really is rocket science.''
    And, ``New human-rated launch vehicles will likely be more 
reliable once they reach maturity, but, in the meantime, the 
Shuttle is in the enviable position of being through its infant 
mortality phase. Its flight experience and demonstrated 
reliability should not be discounted.''
    And I think it's important to consider, just briefly, how 
successful we have been. And I want to say, no one feels the 
loss of the Challenger and the Columbia more than I do, because 
I knew both of those crews. But, it's significant to note that 
we have flown 130 missions now. We just completed the 130th 
mission of the Space Shuttle. And compare that to our previous 
entire space program, which was 31 total launches. All of 
Mercury, Gemini, and Apollo amounted to 31 total launches. So, 
therefore we have flown more than four times as many launches 
with the Shuttle as our entire space program prior to this. So, 
it has been, I think, a great accomplishment.
    As for the commercial sector, they may very well ultimately 
achieve the success and the reliability that we demand for 
human endeavors, but, to me, it makes no sense to turn 
everything over, at this time, to an unproven vehicle. We need 
to allow them to establish a track record flying cargo that 
will allow us to evolve into human carriage with those types of 
vehicles.
    Now, at the same time, NASA needs to help the commercial 
service providers to be successful. And for that to happen, we 
need to leverage the core talents and the abilities, the 
operations, the safety of our NASA human spaceflight centers, 
and let's not lose the lessons that we've learned over 50 years 
of human spaceflight, some of them at fairly high cost.
    We must also maintain the core expertise in the people that 
we have at NASA that is so necessary to keep up any human 
spaceflight endeavor. With the ending of the Space Shuttle 
program and the proposed cancellation of the Constellation 
program, and with no specific program to replace them, more 
than a third of NASA's workforce of experience-based 
professionals is at risk of being lost. This would represent a 
major disruption in our human spaceflight program, as well as 
our economic and industrial base; we must make sure that we 
maintain that.
    And Senator Mikulski also touched on that when she said, 
``Workforce transition. The retirement of the Space Shuttle 
should proceed as planned in 2012 after ISS assembly is 
complete, and any future direction must include a plan to 
maintain critical skills and incorporate lessons learned from 
our previous efforts to replace the Shuttle and to soften any 
job dislocation impacts.'' That was her quote.
    Commercial spacecraft, as I've already touched on, may 
eventually be reliable enough to give us the capability that we 
need, but there's still a large learning curve that's ahead of 
them, and for them to succeed in space is going to take a lot 
of involvement with the NASA centers of expertise.
    There is a quote that the Augustine committee had to say, 
as well, about that, and it is, ``If we craft the space 
architecture to provide opportunities to this industry, there 
is the potential, not without risk, that the cost to the 
government would be reduced.'' And it's this very risk inherent 
in this approach that demands that NASA remain vitally 
involved.
    We also need a backup to the Russian Soyuz for transporting 
our astronauts to the ISS. The present cost, of $51 million per 
crewmember, will change when we no longer have our own access 
to space. The head of the Russian Space Agency, Anatoly 
Perminov, has already stated--and this is a quote--``We have an 
agreement until 2012 that Russia will be responsible for 
this.'' And ``this'' is referring to transporting astronauts of 
other nations to the International Space Station. And then he 
goes on to say, ``But, after that? Excuse me, but the prices 
should be absolutely different then.'' And his statement, 
``absolutely different then,'' is somewhat frightening to me. 
The Russians are new to capitalism, but they know how it works; 
and when you have a monopoly, you charge monopoly prices.
    We have an opportunity at this time to leverage a lot of 
the research and the development and the funding that went into 
the Constellation program to continue with development of 
Rocket X, a vehicle that would support heavy-lift vehicle, by 
continuing to develop the five-segment rocket booster, the J-2 
engine and the Orion spacecraft, as the quickest and most 
inexpensive way to working our way to a heavy-lift vehicle.
    In summary, I want to state that, with the retirement of 
the Space Shuttle later this year, and if the administration's 
proposal is followed, the United States will no longer be a 
space-faring nation. We will have placed the future of our 
space program in the hands of the Russians and the unproven 
commercial sector. And with no program on the drawing boards, 
we will have ceased exploration beyond low-Earth orbit, and 
we'll be many years away from any hope of regaining what we 
once had. And what we once had was a--an exciting and vibrant 
space program that was the envy of the world and literally lit 
up the eyes of thousands of schoolchildren around the world 
that I've spoken to over the last 30 years.
    Mr. Chairman, I'm hopeful that you and your colleagues can 
alter the course that we appear to be on.
    Thank you for allowing me to testify today.
    [The prepared statement of Captain Gibson follows:]

   Prepared Statement of Captain Robert ``Hoot'' Gibson, USN (Ret.) 
                       and Former NASA Astronaut
    Mr. Chairman, good afternoon. Thank you for inviting me to address 
this distinguished committee, and I have to say I believe you really 
have your work cut out for you! In the letter from Senator Rockefeller 
I was asked to address the Administration's new overall direction for 
NASA including the following areas:

  <bullet> The proposal to cancel the Constellation program

  <bullet> The reliance on commercial spacecraft for access to low 
        earth orbit

  <bullet> Testing an Ares I-like rocket en route to building a heavy 
        lift vehicle

  <bullet> Astronaut safety issues associated with both the Space 
        Shuttle and commercial spaceflight

    The Administration's proposal opens more questions than it answers. 
What is the vision? Where are we going? The abrupt change in NASA's 
exploration approach has no clear path, no destination, no milestones, 
and no program focus, hence none of the Technology Pull so important to 
real innovation. With no specific programs, the budget cutters in 
future years will likely be able to reduce and eliminate funding for 
``Technology Development'' as simply unfocused and unaffordable. This 
will take NASA down a path which will quickly end its Human Spaceflight 
endeavor.
    I would like to state that it is imperative that NASA must maintain 
global leadership in Human Space Flight! With the International Space 
Station (ISS) in low earth orbit (LEO), NASA has established a frontier 
in space. The Administration has directed NASA to turn over ISS 
transportation to the commercial/ private sector, which I will say more 
about in a moment.
    To maintain global leadership and core competencies in Human Space 
Flight, NASA must now focus on establishing the next frontier beyond 
LEO. In fact, the Summary report of the Augustine Panel stated:

        ``There is now a strong consensus in the United States that the 
        next step in human spaceflight is to travel beyond low-Earth 
        orbit.''

        ``The Committee concluded that the ultimate goal of human 
        exploration is to chart a path for human expansion into the 
        solar system. This is an ambitious goal, but one worthy of U.S. 
        leadership in concert with a broad range of international 
        partners.''

    Establishing this new frontier is inherently governmental due to 
the risks that must be accepted by professional Astronauts and the 
large investments required. The commercial and private sector will then 
follow. International partnerships should be fully leveraged to reduce 
the burden on any one nation--but NASA must lead!
    This means:

        NASA needs a destination--a goal. Whether it is Mars, Lagrange 
        Points, Near Earth Asteroids, or whatever.

        NASA must define the roadmap and technological achievements 
        required to achieve the goal. This becomes the ``Flexible 
        Path,'' provides the Technology Pull, and focuses investment.

        NASA needs a heavy lift vehicle to achieve these beyond LEO 
        goals.

        A Human Spacecraft that goes beyond LEO is very different from 
        a Spacecraft that only transports crew to and from ISS. NASA 
        needs to start working on that vehicle right now.

    As to the specific points that Senator Rockefeller asked that I 
address, I want to start with ``Astronaut Safety Issues associated with 
both the Space Shuttle and commercial spacecraft'' because crew safety 
has always been extremely high on my list. In fact, Mr. Chairman, in 
her letter to you, Senator Mikulski listed as her first principle:

        ``Astronaut Safety--The safety of our astronauts is my number 
        one priority. This means whatever transportation system is 
        chosen, it must protect astronauts during launch, mission 
        execution and re-entry, including long duration space flight.''

    As far as the Space Shuttle part of this question, there are 
several other statements from the Augustine report I want to mention:

        ``Space operations are among the most complex and unforgiving 
        pursuits ever undertaken by humans. It really is rocket 
        science.''

        ``New human-rated launch vehicles will likely be more reliable 
        once they reach maturity, but in the meantime, the Shuttle is 
        in the enviable position of being through its infant mortality 
        phase. Its flight experience and demonstrated reliability 
        should not be discounted.''

    I think it is important to consider how successful the Space 
Shuttle has actually been. I want to add that no one feels the losses 
of ``Challenger'' and ``Columbia'' any more than I do--I knew both of 
those crews. But it is also very revealing to look at how many missions 
we have successfully accomplished and the great steps forward we have 
made with the Shuttle. We have just completed the 130th Space Shuttle 
mission. We have launched dozens of satellites, docked with the Russian 
Space Station and built the ISS. The entire United States Space Program 
prior to Shuttle had amounted to 31 total launches! This includes all 
of Mercury, Gemini, Apollo including all the moon landings, Apollo-
Soyuz, as well as Skylab. We have therefore flown more than 4 times as 
many flights with the Space Shuttle than our entire previous space 
program, which I feel has been a great accomplishment. Our tragic 
losses in the program both occurred when we let our guard down in 
applying the necessary rigor that space Flight demands. It truly is 
``Rocket Science.''
    As for the commercial sector, they may very well ultimately achieve 
the success rate and reliability that we demand for human endeavors, 
but it makes no sense to just turn over the entire operation to an 
unproven vehicle or company. We need to allow them to establish a 
``track record'' with cargo before we turn over the human portion of 
launches. At the same time, NASA needs to help the commercial service 
providers to be successful. For this to happen, the commercial 
providers need to be incentivized to take advantage of the operational, 
safety, and technical expertise of the NASA Human Space Flight Centers. 
Don't lose the lessons learned over 50 years of Human Spaceflight--some 
of those lessons very costly.
    Testing an Ares I--like rocket en route to building a heavy lift 
vehicle. We should most definitely continue with the testing of an Ares 
I vehicle in support of a heavy lift launcher. We have an opportunity 
at this time to capitalize on a significant investment in time and 
money that has gone into the development of the 5 segment solid rocket 
motor, the J-2 rocket engine, and the Orion vehicle as the quickest and 
most economical way to a heavy lift and crew capability. The launch pad 
has had the modifications, the launch tower is in place, the team is in 
place, and it makes all the sense in the world to complete this 
program.
    This also ties into the question of the proposal to cancel the 
Constellation program and continuing the Ares I testing, and has a 
significant bearing on what we derive from the nearly $10 billion 
investment that went into Constellation. The need for the heavy lift 
vehicle has already been discussed, and the cancellation costs in these 
contracts would add significantly to the overall price of this program, 
with nothing to show for it. For no more cost, the completion of the 
Ares I testing would support the heavy lift launcher with the 
technology needed such as the 5 segment booster, and the J-2 engines. 
To launch and fly this spacecraft will not cost any more than actually 
canceling it. In addition, it would maintain the skilled team in place 
necessary for any future space endeavor. With the ending of the Space 
Shuttle program and the proposed cancellation of the Constellation 
program, and with no specific program to replace them, more than a 
third of NASA's workforce of experienced space professionals is at risk 
of being lost. This will result in a major disruption to our industrial 
base and loss of core expertise for exploration and Human Spaceflight 
within both industry and government. At least one of the commercial 
developers has stated that they can not succeed in Human Spaceflight 
without this core of expertise within NASA to rely on. Maintaining this 
knowledge base is critical to our future in Space as well as preserving 
our place in global competitiveness. Senator Mikulski mentions this as 
well in her letter stating:
    ``Workforce Transition--The retirement of the Space Shuttle should 
proceed as planned in 2011 after ISS assembly is complete, and any 
future direction must include a plan to maintain critical skills and 
incorporate lessons learned from our previous efforts to replace the 
Shuttle, and to soften any job dislocation impacts.''
    The reliance on commercial spacecraft for access to low-Earth 
orbit. I have already touched on this subject in several other places, 
but there is still more to be said. As much as we all want to see the 
commercial sector succeed in space, there is a large learning curve 
that lies ahead of any such efforts, particularly in the area of human 
rated vehicles. The Augustine Panel said:

        ``If we craft the space architecture to provide opportunities 
        to this industry, there is the potential--not without risk --
        that the costs to the government would be reduced.'' (emphasis 
        added).

    It is the very risk inherent in this approach that demands that 
NASA remain vitally involved in this effort, and that we do not turn 
this over completely to the commercial sector until they have proven 
their capabilities.
    It is additionally important to realize what the commercial segment 
would accomplish for the overall space program. Estimates of the length 
of time required for the commercial sector to develop this capability 
range from 3 to 5 years, and even assuming that they proceeded with no 
setbacks whatsoever, it only accomplishes a capability to LEO. It does 
not begin to achieve any of the more desirable goals mentioned in the 
Augustine Report; that is beyond LEO. It is not unimaginable that with 
failures or problems, this time could extend well into 10 years for the 
commercial sector.
    It is relevant to consider how long it took to develop the Space 
Shuttle System. The propulsion system was based on rocket engine 
technology that was already developed, and consisted of Liquid 
Hydrogen/Liquid Oxygen Engines, Solid Rocket Boosters, and Hypergolic 
rocket motors. The airframe of the Shuttle would be of mainly aluminum 
construction as would the External Tank, and it would employ avionics 
that were largely representative of what had been done before. The new 
developments would be in the realm of the Thermal Protection System 
(Tiles, Blankets and Reinforced Carbon-Carbon), and the fact that the 
Shuttle would be a reusable vehicle. Development started in 1972 and 
the estimate for the first space flight was originally 1976. In 
actuality, it required until 1981 for the Shuttle to fly, in spite of 
the significant amount of developed technology that was utilized in the 
vehicle. For all these considerations, it is incredibly premature and 
naive to simply turn over all efforts toward LEO to the commercial 
sector.
    We also need a backup to the Russian Soyuz for transporting our 
astronauts to the ISS. The present cost of $51 Million per crewmember 
will change when we no longer have a way to access space on our own. 
The head of the Russian Space Agency, Anatoly Perminov, has already 
stated: ``We have an agreement until 2012 that Russia will be 
responsible for this,'' about ferrying astronauts from other countries 
into low earth orbit. ``But after that? Excuse me, but the prices 
should be absolutely different then!'' His statement ``Absolutely 
different then'' is frightening to me! The Russians are new to 
capitalism, but they know how it works, and when you have a monopoly, 
you charge monopoly prices. To knowingly commit our Space Program to 
this for years on end, without a truly viable solution in work, is 
irresponsible and fiscally dangerous, not to mention the National 
Security implications as well!
    In summary, I want to state that with the retirement of the Space 
Shuttle later this year, and if the Administration's proposal is 
followed, the United States will no longer be a space-faring nation. We 
will have placed the future of our Space Program in the hands of the 
Russians and the unproven commercial sector, and with no program on the 
drawing boards we will have ceased exploration beyond low earth orbit 
and will be many years away from any hope of regaining what we once 
had:

        An exciting and vibrant Space Program that was the envy of the 
        world, and literally lit up the eyes of thousands of school 
        children that I have spoken to around the world over the last 
        30 plus years.

    Mr. Chairman, I am hopeful that you and your colleagues can alter 
the course we appear to be on. Thank you for allowing me to address 
this distinguished group.

    Senator Nelson. Thank you, Captain Gibson.
    Miles O'Brien.

            STATEMENT OF MILES O'BRIEN, JOURNALIST 
                AND HOST, ``THIS WEEK IN SPACE''

    Mr. O'Brien. Mr. Chairman, Senator Vitter, thank you for 
allowing me to sit beside Hoot Gibson--he, in the right seat 
beside me; that makes him my co-pilot.
    [Laughter.]
    Mr. O'Brien. I often wondered what it was like for those 
poor Southwest captains when he would sit down in the right 
seat beside them, and there was Hoot, flying that 737. ``Here--
it's yours, pal.''
    Captain Gibson. I'm here to support you.
    Mr. O'Brien. Thank you. It's good to have a wingman.
    I'm a freelance journalist now--18 years covering the space 
program, most of that with my former employer, a large cable 
news network.
    [Laughter.]
    Mr. O'Brien. Lowercase. I moved on. I'm now working on the 
Web, as a lot of my compadres in journalism are right now, in 
partnership with spaceflightnow.com. We have a weekly program 
called ``This Week in Space,'' and this will be the lead story 
this week.
    I also need to tell you, I serve as the chairman of the 
Education and Public Outreach Committee for the NASA Advisory 
Council, and, to be clear today, my views here are my own, not 
anything to do with my NAC business.
    Mr. Chairman, Washington in general, we have a problem. 
There is an uproar across the land about NASA's budget, its 
course change, and it says a lot about how the public is no 
longer in the loop with the space agency. You know, the 
headlines read, ``NASA Cancels Its Moon Mission.'' I would 
submit to you that most people reading those stories didn't 
know we were going to the Moon. And guess what? We really 
weren't, the way it was funded.
    The program was packaged as ``The Vision for Space 
Exploration.'' It never got its promised funding, as we've 
discussed here. And the vision, frankly, was focused a little 
bit on the rearview mirror. Constellation was touted as 
``Apollo on steroids,'' but it really turned out to be a bit of 
a 90-pound weakling, didn't it? It was uninspired in its 
attempt to bring back the magic of the 1960s. NASA, it seems to 
me, was acting a little bit like one of those middle-aged guys 
who was the high school football hero and won the State 
championships and spends all his time talking about the glory 
days. But, the country has grown up and moved on. And I think 
it's time for NASA to get off the barstool a little bit here 
and think about what's next.
    And that's what I see in this budget; I see a lot of 
optimism here. There is--this is a grownup approach to space 
exploration. It syncs the goals with national needs and the 
budgetary realities right now. I'd love it if we could do it 
all. It would be great if we could go back to the Moon. But, 
does that lead us, really, anywhere farther out?
    The space agency is getting a bit of a slap in the face. 
They should be saying, ``Thanks, I needed that,'' I suppose, 
but what we're hearing is not that. Now, change is never easy. 
But, let's think about this for a minute. NASA is supposed to 
be all about change. In fact, if NASA cannot embrace change--
actually invent change--we should close the place down.
    But, there's more to this than that, because, as much as 
anything else, we have here a failure to communicate. I give 
the Administration plan high marks for its reassessment of 
priorities, but it did a horrible job telling the story. The 
headlines should have been, ``Space is Now Open for Business,'' 
or, ``Space Travel for the Rest of Us,'' or, ``Space Station 
Science Gets a Reprieve,'' or, ``NASA is Working on Green 
Aviation and Fixing Air Traffic Delays,'' or, ``Focusing on Our 
Favorite Planet: Mother Earth.'' You get the idea. Instead, we 
got a bunch of the blue Moon stories.
    Well, one of the reasons for this is, it is my 
understanding this decision was closely held in the White House 
Office of Science and Technology, and it was rolled out, 
essentially, to NASA--to the key people at NASA--the weekend 
before the budget rolled out. I guess they were reluctant to 
tell the kids. So--but, most people knew that Constellation was 
essentially a dead man walking. But, denial is a powerful 
thing, and so NASA was caught a bit flatfooted, with no 
strategic plan on how to explain the nuance of this story. And 
let's face it, the mainstream media doesn't have a clue, 
either. Reporters who know some things about this beat have 
been unceremoniously dumped by the big papers and networks, 
right and left, and many of them are--well, they're webcasting, 
I guess.
    So, I guess you could say it's the perfect storm. The 
agency is really not sold on the change internally, the 
communication plan was nonexistent, and the reporters are not 
well informed, and the public is disengaged. But, the people, 
like me, who care a lot about this and have a passion for it, 
are out there. And in advance of this testimony, I sought some 
opinions, via Twitter and Facebook, my little circle of space 
cadets, and I'd like to have those comments submitted for the 
record, if you don't mind. There's a lot of passion out there, 
and a lot of--people care deeply about what happens next.
    Like so many of the people I have heard from, many of whom 
have worked long and hard on Constellation--and I do hope we 
create sort of a Space Station freedom scenario here, where 
pieces of this can live on--I wish that NASA had not been 
painted into this corner. I wish we could have been thinking 
about, and investing in, the next great adventure for humans in 
space, decades ago, so we wouldn't be facing this huge gap 
right now in human spaceflight capability. It could morph into 
abyss, if we're not vigilant. That's the hand we've been dealt. 
Trying to recreate the past is not the path to go; yesterday's 
technology is not the path. The public won't support it.
    Thank you for your time.
    [The prepared statement of Mr. O'Brien follows:]

       Prepared Statement of Miles O'Brien, Journalist and Host, 
                         ``This Week in Space''
    Mr. Chairman--thanks for inviting me--it is a pleasure. I am a 
freelance journalist with about 18 years experience covering the U.S. 
space program--most of that time with my former employer--a large cable 
news network. Since I moved on, I have been covering space on the web--
in partnership with spaceflightnow.com. We offer continuous live 
interactive coverage of shuttle launches--and draw a large global 
audience--in the past few month we have been producing a weekly half 
hour program to the web called this week in space--which has become the 
definitive video chronicler of the events that bring us here today.
    I also need to tell you I serve as Chairman of the Education and 
Public Outreach Committee of the NASA Advisory Council--but to be 
clear--my views expressed here today are my own.
    Mr. Chairman, I am a child of the Space Race and I consider myself 
pretty darn lucky to be able to say that. I, like most of you in this 
room, bore witness to a stunning moment in history--a towering 
accomplishment that defied the odds that made us feel good about what 
humanity can accomplish collectively when we combine big goals with 
hard work, ingenuity and bold action.
    It is a lesson that my generation took to the bank. We (well not 
me)--but we collectively embraced the disciplines we now call STEM--
science, technology engineering and mathematics. This planted the seeds 
of success in Silicon Valley--and insured U.S. economic dominance for 
many decades.
    I sure wish my teenage son and daughter had been as lucky as I. 
They have no first hand experience with those amazing exciting days. 
And so, even in my household, where my interest and passion in the 
subject is well understood--perhaps tolerated is a better term--there 
is little evidence NASA is connecting well with the children of the 
post space race generation.
    And truth be told, NASA lost many members of my generation over the 
past thirty years. How many people even know when a space shuttle is in 
on the launch pad? Or that U.S. astronauts in orbit continuously on a 
space station for nearly a decade now? Or that we have a space station 
at all. A shocking number of otherwise smart people don't have a clue.
    Many of those same people did not know the shuttle program was near 
its end--and that, until recently, the plan was to return to the Moon 
in a suite of rockets and vehicles collectively called 
``Constellation.'' When they asked me for more about this, I would 
frequently quote former NASA Administrator Mike Griffin--who called it 
``Apollo on steroids.'' This was my (lame) attempt at making it as 
interesting--as say--professional sports or something.
    The truth is the public in general long ago stopped paying much 
attention to what NASA is doing in the manned space realm. There have 
been some spikes of interest here and there--for Hubble repair 
missions, to see John Glenn fly or, sadly, for the returns to flight 
after the accidents--but in general--it has been a long, steady decline 
that really began on July 24, 1969--when Columbia capsule carrying 
Armstrong, Aldrin and Collins splashed down in the Pacific. Let's not 
forget Apollo was never built to be a sustainable program. It was all 
about the sprint. Is it any surprise it did not sustain public 
interest?
    Washington, we have a problem . . .
    Now a natural reaction for those of us who lived through the 
triumph of Apollo is to harken back to the good old days. Bring back 
those ``One small step. . . Failure it is not an option'' moments and 
surely our kids will get space bug--and thus we hope--they will be 
stirred toward STEM as well. . . . Hey--it worked like a charm then? 
Why not do it again for old time's sake . . .
    There are a lot of good reasons the recipe for Apollo moment cannot 
be replicated: there's the Cold War context, the desire meet a 
seemingly unattainable goal set by a martyred president and, of course, 
there was the NASA budget that would equate to more than $30 billion 
this year. Now that's some launching around money!
    None of those elements are in the cards today. And let's not forget 
we have been there, done that--and those footprints are forever etched 
in the regolith. While the mission planners and engineers will point 
out the proposal to build a more permanent Moon base is an entirely 
different--and new--challenge, I am afraid this detail is lost on a 
jaded public that wants to hear about something entirely new and 
different.
    So what do people care about when it comes to space? So what are 
the stories that leak out from under my little tent of space lovers? 
Well--speaking of leaks--a new image from the Cassini spacecraft which 
rolled out yesterday is a great example. it shows huge water plumes 
spurting out from the surface of Saturn's moon Enceladus. Very cool 
stuff. Stories about extrasolar planets get a lot of pickup . . . so do 
interesting images from the spacecraft that orbit and rove Mars . . . 
anything form Hubble--or anything about the former planet Pluto.
    And when it comes to human beings in space--there is insatiable 
interest in the effort to open space up to the rest of us. I will never 
forget the thrill I had covering SpaceShipOne as it captured the X-
Prize in Mojave in October of 2004. The excitement in the air was 
palpable--for a flight that went about as high as Alan Shepard went in 
May 1961.
    But this time it was one of us. The candle was lit beneath a rank 
civilian. No Right Stuff required. Suddenly, it all seemed within our 
grasp--in our lifetimes. Nearly fifty years after Gargarin and Shepard 
flew--only 500 humans have made it to space--you Mr. Chairman are one 
the of the lucky ones. I had hoped to be on the list by now myself.
    People want to go there themselves--simply sending a GS-13 civil 
servant does not thrill them anymore.
    It is high time the government helped open up the space frontier to 
the private sector--just as it helped the railroads span the continent 
. . . or as it built the interstates . . . or created our aviation 
infrastructure. And I applaud the White House for placing this bet on 
what amounts to nascent spacelines that may one day carry hundreds of 
people to space every month . . . or every week. Arthur C. Clarke would 
be proud. An while this exciting aspect of the plan got lost in badly 
bungled public rollout of the news--I think it will generate a lot of 
excitement as time goes on.
    I applaud extra money spent on aeronautics and earth sciences. 
Theses efforts will go a long way in helping the agency answer those 
every day relevancy questions that always come up. These will be good 
stories to tell the public.
    I applaud the money that will be spent on participatory 
exploration. The public that wants to go to space--also demands to be 
looking over the shoulders of NASA scientists as they download the 
latest Hubbble, Cassini or Opportunity images.
    And I am glad the station won't be deep-sixed before it even has a 
chance to prove its scientific value. It turns out the absence of 
gravity can make germs more virulent. Turning up the volume on this 
might make it easier to learn how to make vaccines. There might be some 
real news that comes out of this unique national laboratory in the next 
decade.
    Which bring us to the mission. What is the next great human mission 
in space? Frankly it isn't clear. And that is a bit worrisome. It is 
nice to have goals. We children of the Space Race love a destination 
and a deadline. But goals that simply lead to uninspired jobs programs 
are not what we need.
    NASA was not getting anywhere doing business the way it had been. 
Over the years, the money required to keep flying the shuttle safely 
left little room to push the envelope--as they say. With this budget, 
the money will be there to pursue some new propulsion technologies that 
might get us to Mars in a reasonable period of time; or find some 
better ways to arrive in orbit and on the surface of another planet; or 
work on closed loop life support systems; or come up with ways for 
future explorers to use the resources that exist on Mars.
    In one sense, we won't going anywhere I suppose. But we will be 
exploring--taking the necessary first steps on the journey we have 
dreamed of for years. I only wish we had started sooner.
    It is time for our space agency to reboot and rethink its mission. 
I look forward to telling the story of NASA 2.0.

    Senator Nelson. Thank you, Mr. O'Brien.
    Mr. Mike Snyder.

       STATEMENT OF MICHAEL J. SNYDER, AEROSPACE ENGINEER

    Mr. Snyder. Good afternoon. Thank you, Mr. Chairman, for 
the opportunity to appear before the Subcommittee today to 
discuss the challenges and opportunities of the proposed Fiscal 
Year 2011 budget for NASA.
    My name is Mike Snyder, and it has been my honor and 
privilege to work on the Space Shuttle program for the past 13 
years. I'm an engineer, and I'm one--just one of the tens of 
thousands of people across America who work daily on the 
Nation's efforts in human spaceflight programs.
    The views you hear today are my own, but I can assure you 
that they are representative and shared by many in the 
aerospace force at large.
    The space program is often referred to as a national asset, 
an asset that has, does, and hopefully will continue to set the 
United States of America apart from all other nations. By 
extension, that same reference could, and should, be applied to 
the men and women that make it all happen.
    Today, unfortunately, I must inform you that morale across 
the entire human spaceflight workforce, both civil servant and 
contractor, is low. Perhaps the single biggest contributor to 
the low morale is the perceived lack of any detailed plans with 
clearly defined objectives and timetables for the future of 
spaceflight.
    Hanging on a wall in my office building is a poster that 
states, ``If you aim at nothing, you are certain to hit it.'' 
And I cannot escape the potential relevance of that statement 
in this case. All too often, it seems, we are not allowed a 
policy that, while planning for the future and developing the 
technologies that will ultimately be necessary, that we take 
those first steps with our abilities and capabilities of today. 
We must break free of the cycle that any new program first 
requires the elimination of all that has come before it for the 
sake of that implementation.
    If NASA is to make such a dramatic change in course all at 
once, the question the workforce is left asking is, How can all 
the necessary details associated with this new direction be in 
place a short 7 months from now, when two out of the three 
major human spaceflight programs are scheduled for termination? 
The answer, we believe, is that they will not. If that is 
indeed the case, then who will perform this work? Where will 
this work be located, and when will it be available?
    Many of us, obviously, have families who we, obviously, 
need to support. We cannot, and will not, be able to wait 
around and assume that better days are ahead. For the Nation 
and this industry, the result will be a workforce with valuable 
and unique skills and experience that will be greatly 
diminished or lost completely, and one that cannot be rebuilt 
without significant time and effort.
    Contributing to the workforce dilemma is the apparent 
arbitrary 2010 retirement date of the Shuttle. It would be far 
easier to stand down this unique capability if there were other 
vehicles ready to fill the void that Shuttle retirement will 
surely create. We had hoped that we could pass the torch onto 
the follow-on program. Now, however, it simply looks like we're 
extinguishing it, regardless of the circumstances that that 
decision will create.
    As of today, no American replacement vehicles exist that 
are operational. And the Nation is hinging the sustainment and 
full utilization of the International Space Station--our $100-
billion investment, 26 years in the making--on the hope and 
assumption that they arrive. In my opinion, that is a strategic 
mistake of vast proportions, and one that requires the utmost 
reconsideration from all levels of the Federal Government.
    Instead, we have chosen to rely on a foreign nation as the 
sole method of transport for an unspecified amount of time to a 
Space Station which owes its very existence to U.S. leadership, 
it has been so heavily funded by the American people. In 
general, this has been interpreted as a lack of faith from our 
government in our ability to fly the most capable vehicle to 
ever orbit and return to the Earth in support of the ISS.
    The reality of the situation is that we need a better and 
smoother transition that recognizes the new robustness of the 
Space Shuttle performance, and one that does not instantly and 
all at once swing the pendulum to the opposite extreme. We need 
a transition that not only plans for the future with a detailed 
program, including timetables for beyond-Earth-orbit 
exploration, but also supports our immediate and critical 
mission: full utilization of the ISS. We need a transition that 
takes advantage of the capabilities of multiple commercial 
providers, in combination with any potential NASA follow-on 
vehicle, to ensure that use of ISS.
    At present, this use can only be accomplished with the 
extension of the Space Shuttle program. Once these commercial 
providers or other capabilities have met the appropriate 
performance milestones that prove their capability, then that 
is, and should be, the trigger for Shuttle retirement. If this 
Nation allows ISS to degrade and not realize its full 
potential, then, potentially, so does the business case for 
these commercial providers.
    Extension of the Shuttle program also opens up the 
possibility of a Shuttle-derived heavy-lift vehicle. A 
recombination of Shuttle elements into a new inline 
configuration could yield that capability in just a few years 
and take advantage of the natural synergies between Shuttle, 
the potential HLV, their shared infrastructures, and the 
current experience base of the workforce.
    Finally, we have heard a lot about education and inspiring 
the nest generation; it's an obviously worthy goal. My fear is 
that kids who would otherwise do well in this field will 
ultimately be discouraged from entering it by multigenerational 
programs where we promise to go somewhere and then always 
retreat. If we, as a Nation, are serious about spaceflight, 
then that is something that we must absolutely change. I never 
saw a man walk on the Moon, and that was something already 
relegated to history books by the time that I was born. My real 
concern with the current proposal is that my girls will grow up 
in a country where they, too, have to look to the history books 
to see what this Nation used to be capable of achieving.
    Thank you again, Mr. Chairman, and I'm happy to respond to 
any questions you or other members may have.
    [The prepared statement of Mr. Snyder follows:]

      Prepared Statement of Michael J. Snyder, Aerospace Engineer
    Thank you, Mr. Chairman, for the opportunity to appear before your 
Subcommittee today to discuss the ``Challenges and Opportunities of the 
Proposed FY 2011 Budget for NASA.''
    My name is Mike Snyder and it has been my honor and privilege to 
work on the Space Shuttle Program for the past 13 years. I am not a 
civil servant, a CEO of a major aerospace corporation or even a member 
of senior management. I am an engineer and one of the tens-of-thousands 
of people across America who work daily on this Nation's efforts in 
human spaceflight programs. The views you hear today are my own but I 
can assure you they are representative and shared by many in the 
aerospace workforce at large.
    It has always been my dream to be a part of the Space Program, and 
even as a kid, I never wanted to do anything else. This is more than 
just a job to me. It is a passion. It is about diligence and 
dedication. It is about service and about being part of something 
greater than myself. However, my story is not unique as these feelings 
and beliefs are shared by countless others who make up the backbone of 
any undertaking this Nation makes with regard to spaceflight and 
exploration.
    The Space Program is often referred to as a national asset, an 
asset that has, does and hopefully will continue to set the United 
States of America apart from all other nations. By extension, that same 
reference could and should be applied to the men and women that make it 
all happen. However, I cannot escape the impression now of being taken 
for granted, of being considered expendable. It seems to be assumed we 
are to quickly adapt and possibly relocate our families and reorient 
our lives easily. Perhaps most importantly, in the workplace, we are 
expected to compartmentalize all the unknowns and concerns about 
everything we have worked for seemingly slipping away and still do the 
job, the mission, we know we have to do. Today, I must inform you that 
morale across the entire human space flight workforce, civil servant 
and contractor, is extremely low. The lowest I have seen it in all my 
years of service.
    Perhaps the single biggest contributor to the low morale is the 
perceived lack of any vision, purpose or detailed plans with clearly 
defined goals, objectives and timetables for the future of human 
spaceflight. We can all agree that Research and Development (R&D) is 
vitally important. However, R&D without direction and purpose, without 
a planned and well-defined operational concept is no more useful or 
sustainable than assuming we can explore the solar system and beyond 
without development of new technologies. I cannot stress enough the 
importance of having an over-arching program with clearly defined goals 
that focus these R&D efforts to near term as well as long term 
capabilities with the intent and strong National will to use them. 
Congress must not let our Nation fall into the trap yet again that 
vaguely ties these technologies and capabilities to some future date, 
future Administration and future Congress--because that way will 
ensure, in my opinion, that these expensive initiatives never bear 
fruit and will serve only as a disservice to this industry's current 
and future workforce and to the United States of America as a whole.
    Along these lines, we are all told by our Center Directors, company 
CEOs, and our senior management that more information will be 
communicated about the direction of the Agency. However, the problem is 
that they do not yet know either. What the everyday worker does know is 
the inescapable fact that two of three of this Nation's major human 
space flight programs are proposed to be terminated. We are told by 
senior Agency officials that this will ultimately be good for every 
center, even if that does not make logical sense to us. We also know 
that it can be a lengthy process to chart a new course, request 
contract proposals, to negotiate contracts, and to turn that work on so 
people can do that work.
    The question we are left asking is how can all of this possibly 
happen in any reasonable amount of time? The answer, many of us 
believe, is that it will not, given the fact we are only 7 months away 
from the proposed end of these programs. With that knowledge, we non-
civil servants are forced to choose: do we risk completing a program 
that was at one time in the Nation's best interest, and in which we 
have personally invested so much, then to find there are no jobs and 
that our dedication has been at the expense of our families? Or do we 
leave now, potentially abandoning our careers in a field and in a cause 
we find important, worthy and noble in order to assure our families are 
properly cared for? These are the questions we face and each of us will 
have to answer individually--but for the Nation the result will be the 
same: a workforce with valuable and unique skills and experience that 
will be greatly diminished or lost completely and one that cannot be 
rebuilt without significant time and effort.
    Contributing to the workforce dilemma is the arbitrary 2010 
retirement date of the Space Shuttle that is now upon us and all the 
consequences that brings. Those of us who have worked on this program 
for the last several years obviously knew the end of the Shuttle era 
was coming. We had hoped that we could ``pass the torch'' onto a 
follow-on program, but now, it looks more like we are simply 
extinguishing it. The Space Shuttle's main reason for existence and its 
primary mission was the construction and periodic resupply of a space 
station. By the end of this year, that mission will still only be 
partially complete. It would be far easier to stand down this unique 
capability if there were other vehicles ready to fill the void Shuttle 
retirement will surely create.
    However, as of today, no American replacement vehicles exist that 
are operational and this Nation is hinging the sustainment and full 
utilization of the International Space Station, our one-hundred-
billion-dollar investment twenty-six years in the making, on the hope 
and assumption that Russian, Japanese, European and unproven commercial 
vehicles will provide adequate personnel and logistic support to the 
ISS. In my opinion, this is a strategic mistake of vast proportions and 
one that requires the utmost reconsideration and serious attention from 
all levels of government. We are on the verge of giving up the 
inherently robust and flexible capabilities of the Space Shuttle, 
capabilities that are unique to this world and not likely to be 
duplicated by any nation or any company in the near future, simply 
because we choose to do so. Instead we have chosen to rely on a foreign 
nation as the sole method of transport, for an unspecified amount of 
time, to a space station which owes its very existence to U.S. 
leadership and has been so heavily funded by the American people. In 
general, this has been interpreted as a lack of faith from our 
government in our ability to fly the most capable vehicle to ever orbit 
and return to the Earth in support of the ISS, all so we can reallocate 
the approximately eight one-hundredths of 1 percent that represents the 
cost of the Shuttle Program to the Federal budget to something else.
    Those of us that work on the Shuttle Program daily hear a lot about 
how the Orbiter is an aging vehicle on the verge of falling apart, that 
it has outlived its usefulness, that it is inherently unsafe and other 
more colorful analogies. This is the incorrect perception that 
constantly challenges us. As someone with intimate knowledge of our 
processes and procedures, I assure you each Space Shuttle flight is as 
safe as it can possibly be. Anyone who thinks otherwise, I invite you 
to Johnson Space Center, Kennedy Space Center, Marshall Space Flight 
Center, our other field centers, our various support and depot 
facilities or the countless vendors still supporting across this 
country. Spend a day with the everyday workers and see our attention to 
detail, how we rigorously test and inspect the vehicle before every 
flight, how we work problems to ``pound them flat,'' how we run 
countless simulations and how we manage, minimize and accept, or do not 
accept if the situation warrants, the risk that is and will be 
associated with sending humans into space for the foreseeable future. 
It is time to challenge the misconceptions about the Space Shuttle that 
have been so carefully promoted over the last several years, simply to 
help justify using the Space Shuttle budget for other activities.
    To help dispel those misconceptions, allow me to cite just a few of 
the newer capabilities that make the vehicle safer than at any previous 
time in the Program's history. The External Tank has been significantly 
improved to reduce the likelihood of losing foam that can harm the 
Orbiter. There are cameras on and around the vehicle we did not have a 
few years ago giving spectacular views never before seen but, more 
importantly, provide invaluable data on the performance of the 
integrated stack during launch and ascent. We have capabilities on-
orbit that allow us to know in near real-time the structural integrity 
of the vehicle and the state of the Thermal Protection System. This 
allows the opportunity to rigorously evaluate, and if necessary repair 
in some conditions, all abnormalities long before ever committing to 
entry. We have worked an effort for the past 7 years addressing all 
critical and critically redundant component and system level 
certifications verifying we ``fly how we test and test how we fly'' and 
in some cases making the appropriate changes or performing additional 
testing when discrepancies were found.
    All of this, along with other improvements and our normal duties, 
has led to the fleet performing better than it ever has, and as 
evidence of this, I point to the just-completed STS-130 mission. 
Endeavour returned home from a challenging and complex mission, having 
performed magnificently and with zero major problems and virtually 
nothing to be evaluated prior to committing to the next mission. That 
said, we stand ready to address any problems that may surface and we 
remain ever vigilant looking for and trying to anticipate that next 
problem before it even occurs. This is the product of a highly skilled 
team and a vehicle with history--a history whose final chapter should 
not be written until we are certain there will be a story on the next 
page so that full utilization of ISS to 2020, and possibly beyond, can 
truly be realized.
    When I and others point out the vast improvements in Space Shuttle 
safety and reliability, we are often labeled as ``shuttle-huggers'' 
trying desperately to maintain the status quo for our ``government-
funded jobs program.'' We have heard it all before and I assure you 
that anyone who truly knows me would not use the words ``status quo'' 
to characterize me. The reality of the situation, in my opinion, is 
that we need a better and smoother transition that recognizes the new 
robustness of Space Shuttle performance and one that does not instantly 
and all at once swing the pendulum to the opposite extreme. We need a 
transition that not only plans for the future with a detailed program 
including feasible and realistic timetables for beyond-Earth-orbit 
exploration but also supports our immediate and critical mission: full 
utilization of the International Space Station. We need a transition 
that takes advantage of the capabilities of multiple commercial 
providers, in combination with any potential follow-on NASA vehicle, to 
ensure full utilization of the ISS. At present, this full utilization 
can only be accomplished with an extension of the Space Shuttle 
Program. Once these commercial providers or other vehicles have met the 
appropriate performance milestones that prove their capability, then 
that is and should be the trigger for Shuttle retirement. However, if 
ISS is allowed to degrade or not realize its full potential, the 
business case for these commercial providers could possibly degrade 
with it.
    Extension of the Shuttle Program also opens up the possibility of a 
Shuttle-Derived Heavy Launch Vehicle (HLV). Some form of an HLV has 
generally been agreed to be needed, along with several other potential 
technologies, to enable exploration beyond low-Earth orbit. It has been 
suggested that we spend some of the proposed R&D money on technologies 
to be used for another HLV that may come online twenty or so years from 
now. However, we have an HLV today and a recombination of the Space 
Shuttle elements into a new in-line configuration could yield that 
capability in just a few years and take advantage of the natural 
synergies between Shuttle, HLV and their shared infrastructures, 
potentially driving down the costs of both.
    Finally, we have heard a lot about education and inspiring the next 
generation--an extremely worthy goal no doubt and one I have been 
fortunate enough to play a part in from time to time and will do so 
again as my two little girls grow. It is said that the proposed new 
direction will do just that. However, I believe there are some concerns 
that need to be considered. In my opinion and experience all young 
people will not get excited about only research and development that 
only offers the possibility of going somewhere, somehow, with something 
like what may be in a test stand, someday in the future. I believe the 
best way to inspire the next generation is for them to see real plans 
in action, with real hardware doing real missions and knowing there is 
more to come and that they too can be part of it.
    I use myself as an example. I was born after the Apollo moon 
missions and have never seen anyone leave the confines of Earth orbit. 
My generation inherited the Space Shuttle Program and I am lucky enough 
to be a part of it and to be involved in the construction of the 
International Space Station. However, the Space Station Program was 
first announced when I was 10 years old. Today, at 36 years old, we are 
just finishing up construction. My fear is that kids who would 
otherwise do well in this field are ultimately discouraged from 
entering it by multi-generational programs and the constant threat of 
policy changes.
    We are already seeing the signs of that pattern repeating, where 
students in college studying engineering and technology today, could be 
older than I am now when the theoretical HLV under the current proposal 
finally lifts off the ground for the first time. If we as a Nation are 
serious about spaceflight, then that is something we together must 
absolutely change. As I said earlier, I never saw man walk on the moon 
and that was something already relegated to history books by the time I 
was born. My real concern with the current proposal is that my girls 
will grow up in a country where they too have to look to the history 
books to see what this Nation used to be capable of achieving.
    Thank you again, Mr. Chairman, and I am happy to respond to any 
questions from you or members of the Subcommittee.

    Senator Nelson. Thank you, Mr. Mike Snyder.
    Mr. Tom Young.

         STATEMENT OF A. THOMAS YOUNG, FORMER DIRECTOR,

                NASA GODDARD SPACE FLIGHT CENTER

           AND PRESIDENT AND CHIEF OPERATING OFFICER,

                  MARTIN MARIETTA CORPORATION

    Mr. Young. Chairman Nelson and Mr. Vitter, I'm please to 
have the opportunity to comment on the proposed Fiscal Year 
2011 NASA budget.
    As requested, I will concentrate on NASA's budget proposal 
beyond human spaceflight; however, I can't resist offering a 
few comments on human spaceflight at the conclusion of my 
remarks.
    It's important to define the basis and criteria for my 
assessment. I believe what NASA does says much about our 
country. What NASA does is very much a part of what we believe 
to be important, our role in the world, and our values. I have 
no doubt NASA's accomplishments in the past five decades, to 
use an Olympic analogy, have placed the United States at the 
center position on the podium. We must assure that our current 
decisions result in a continuation of this success.
    The operational elements of the NASA budget are science, 
aeronautics and space research and technology, and human 
spaceflight, including both exploration and space operations. 
There is significant growth in the new science budget, as 
compared to Fiscal Year 2010 budget. This growth is in Earth 
Science. Planetary science and astrophysics are largely 
unchanged, and some decline exists in heliophysics.
    The National Academies produce Decadal Surveys that provide 
scientific basis and proposed priorities for each discipline of 
science. I have the privilege of serving as Vice Chairman of 
the Space Studies Board, which, along with other boards, 
provides oversight of the Decadal Surveys. I'm also a member of 
the committees currently conducting astrophysics and planetary 
surveys. The Decadal Survey process is enormously 
comprehensive, representing the best in scientific debate and 
decisionmaking. The result is a 10-year plan with extraordinary 
support and credibility.
    The Earth Science Decadal has been available for a few 
years, and provides a sound basis for the growth proposed in 
the physical year 2011 budget. Astrophysics and planetary 
surveys are currently in development. While the proposed budget 
will support impressive astrophysics and planetary missions, 
there are extraordinary mission opportunities responsible to 
the most profound questions concerning our solar system and the 
universe that will not be affordable. I believe the same 
observations are true for heliophysics, which is just beginning 
the next Decadal Survey process.
    In summary, much can be accomplished within the proposed 
science budget that will contribute to our understanding of 
Earth, our solar system, and the universe. Although it is 
frustrating knowing that there are worthy opportunities that 
cannot be accomplished within the proposed budget, there is 
some consolation in knowing that we're implementing the best of 
the best.
    The growth in aeronautics and the new space technology line 
are most positive. It is difficult doing the things NASA does 
without a strong technology base. The proposed space technology 
line will strengthen this critical area. The growth in 
aeronautics and the new space technology program should be 
strongly supported.
    There is also considerable technology funding included in 
the exploration budget. While significant benefits can be 
realized from the total proposed technology investments, we 
must recognize the lack of focus and identified mission uses 
can result in wasteful and nonproductive hobby-shop activity.
    Much is yet to be done to structure a technology program 
that is properly focused. It is easy to spend technology money; 
it's hard to spend it productively. And the critical aspect of 
spending it productively is to have it as a part of an 
integrated strategy.
    That brings me to my overarching comments on human 
spaceflight. The Augustine Commission report had a subtitle 
that I believe deserves our attention: ``A Human Spaceflight 
Program Worthy of a Great Nation.'' I believe the human 
spaceflight program contained in the proposed Fiscal Year 2011 
budget fails this test. My reasons for reaching this conclusion 
are:
    One, I believe the reliance upon commercial human 
spaceflight for access to low-Earth orbit is a risk too high 
and is therefore not a responsible course. I do hope the 
commercial endeavors are successful.
    Two, the absence of a clearly defined human exploration 
program with no expectation of any human exploration for 
decades is not consistent with my views of a great Nation.
    We can only hope that, by this time next year, we will 
recognize that our current course is not tenable, address those 
areas that need the most attention, and reestablish a human 
spaceflight program once again deserving of a great Nation.
    Thank you.
    [The prepared statement of Mr. Young follows:]

 Prepared Statement of A. Thomas Young, Former Director, NASA Goddard 
 Space Flight Center and President and Chief Operating Officer, Martin 
                          Marietta Corporation
    Chairman Nelson and committee members, I am pleased to have the 
opportunity to comment on the proposed FY 2011 NASA Budget. As 
requested, I will concentrate on NASA's budget proposal beyond human 
spaceflight. I will also offer a few observations on human spaceflight 
at the conclusion of my remarks.
    It is important to define the basis and criteria for my assessment. 
I believe what NASA does reveals much about us as a country. What NASA 
does is very much a part of what we believe to be important, our role 
in the world and our values. I have no doubt NASA's accomplishments in 
the past five decades, to use an Olympic analogy, have placed the 
United States at the center position on the podium. We must assure that 
our current decisions result in a continuation of this success. 
Greatness is determined by what one does during challenging times that 
is discretionary.
    The operational elements of the NASA budget are science, 
aeronautics and space research and technology, and human spaceflight 
(exploration and space operations).
    There is significant growth in the new science budget as compared 
to the FY 2010 budget. This growth is in Earth Science. Planetary 
Science and Astrophysics are largely unchanged with some decline in 
Heliophysics.
    The National Academies produce Decadal Surveys that provide 
scientific basis and proposed priorities for each discipline of 
science. I have the privilege of serving as Vice Chairman of the Space 
Studies Board, which, along with the other boards, provides oversight 
of the Decadal Surveys. I am also a member of the committees currently 
conducting Astrophysics and Planetary Surveys. The Decadal Survey 
process is enormously comprehensive, representing the best in 
scientific debate and decisionmaking. The result is a 10-year plan with 
extraordinary support and credibility.
    The Earth Science Decadal has been available for a few years and 
provides a sound basis for the growth proposed in the FY 2011 budget. 
Astrophysics and Planetary Surveys are currently in development. While 
the proposed budget will support impressive Astrophysics and Planetary 
missions, there are extraordinary opportunities responsive to the most 
profound questions concerning our solar system and the universe that 
will not be affordable. I believe the same observations are true for 
Heliophysics, which is just beginning the next Decadal Survey process.
    In summary, much can be accomplished within the proposed science 
budget that will contribute to our understanding of Earth, our solar 
system, and the universe. Although it is frustrating knowing that there 
are worthy opportunities that cannot be accomplished within the 
proposed budget, there is some consolation in knowing we will be 
implementing the best of the best.
    The growth in Aeronautics and the new space technology line are 
most positive. It is difficult doing the things NASA does without a 
strong technology base. The proposed space technology line will 
strengthen this critical area. The growth in Aeronautics and the new 
space technology program should be strongly supported.
    There is also considerable technology funding included in the 
Exploration budget. While significant benefits can be realized from the 
total proposed technology investments, we must recognize that lack of 
focus and identified mission uses can result in wasteful, 
nonproductive, ``hobby-shop'' activities. Much is yet to be done to 
structure a technology program that is properly focused.
    That brings me to my overarching comments on human spaceflight. The 
Augustine Commission report had a subtitle that I believe deserves our 
attention: ``A Human Space Program Worthy Of A Great Nation.'' I 
believe the human spaceflight program contained in the proposed FY11 
budget fails this test. My reasons for reaching this conclusion are:

        1. I believe the reliance upon commercial human spaceflight for 
        access to low earth orbit is a risk too high and is therefore 
        not a responsible course. Nevertheless, I do hope the 
        commercial endeavors are successful.

        2. The absence of a clearly defined human exploration program 
        with no expectation of any human exploration for decades is not 
        consistent with my views of a great Nation.

    We can only hope that, by this time next year, we will recognize 
that our current course is not tenable, address those areas that need 
the most attention, and reestablish a human spaceflight program, once 
again, deserving of a great nation.
                            A. Thomas Young
    A. Thomas Young is the former Director of the NASA Goddard Space 
Flight Center and President and Chief Operating Officer of Martin 
Marietta Corporation. Mr. Young retired from Lockheed Martin in 1995.
    Mr. Young is a member of the Science Applications International 
Corporation (SAIC) Board of Directors. He is currently involved in 
various space advisory and review activities.
    Mr. Young is a member of the National Academy of Engineering.

    Senator Nelson. You are an excellent panel. Thank you. You 
have contributed mightily.
    I might point out that this committee will hold a hearing 
on commercial spaceflight, and we will dig into the details 
with appropriate witnesses over the course of the next few 
weeks.
    Let me ask just a few questions and we'll round out this 
hearing today.
    For Hoot Gibson, how do you think NASA will certify crew 
safety on commercial vehicles?
    Captain Gibson. I'm not sure what their approach stands, 
right at this moment, but the way that they need to do it needs 
to be the way that we have always done it with our inherent 
NASA-developed crew vehicles, and namely, by following the 
human ratings standard that NASA has in place for these 
vehicles.
    I don't think that we could arrive at the right place if we 
just say, ``We're going to build it for cargo, with some 
relaxed requirements, launch it a couple of times and see what 
our success rate is, and then declare it safe for human 
spaceflight.'' I think there's going to have to be a rigorous 
process that we go through in the same manner that we do on the 
vehicles that we develop ourselves.
    Senator Nelson. So, the agency is going to have to define a 
process to validate the commercial providers for human 
requirements.
    Captain Gibson. Yes. And many of these, Mr. Chairman, are 
very specific items--the design of the electrical systems, the 
design of the structure, the structural margins. All of these 
things are very much spelled out in the human rating standards, 
and we're going to have to make sure that every step of that 
process is followed by the commercial providers, as well.
    Senator Nelson. I'm going ask a question that I know your 
answer is yes, but I want to get it on the record. Should the 
Astronaut Office be involved with this certification and 
validation process?
    Captain Gibson. Absolutely yes, Mr. Chairman.
    Senator Nelson. You are a propulsion expert. Is heavy lift 
a priority?
    Captain Gibson. Yes, it is. Yes, it is. With all of the 
comments that we've heard from the Augustine Commission, and 
all of the direction that we have seen in the country, in many 
years now--for many years now, we need to branch out beyond 
low-Earth orbit, and that's going to require heavy lift, for us 
to do that. And the obvious path, in my opinion, for us to 
follow at this point, is to leverage the $9 billion of 
investment that we have already made in the previous program 
and take the things that we have developed, which are in direct 
support, as I mentioned earlier, of the heavy-lift vehicle. If 
we take the cancellation costs that are involved in that 
program, and add it to the amount we've already spent, we wind 
up with a fairly significant price, with nothing to show for 
it. If we continue the testing up through the envisioned 
testing at this time, we can accomplish that at no additional 
cost over what the price would have been, and we wind up with 
something, instead of winding up with nothing.
    Senator Nelson. So, the $2 and a half billion in the 
President's budget to cancel the program--instead, use that to 
continue testing on Rocket X and to continue to develop a 
capsule that ultimately would go on the heavy lift?
    Captain Gibson. Yes, sir, exactly. Exactly the direction 
that, my opinion is, that we should be proceeding in. And that 
way, as I say, we wind up with something at the end of this 
whole entire process, instead of cancellation costs and winding 
up with nothing.
    Senator Nelson. Mr. O'Brien, you have pretty well commented 
on the mood of the country, and we've heard it from other 
witnesses, as well. And yet, you noticed things that have to 
change, and that NASA has to change. How can you--I'm asking 
you an impossible question, but it's one that we have to 
ultimately answer--how do we get from the doom and gloom of the 
perceived program, through this paradigm shift, to make and 
remake NASA?
    Mr. O'Brien. It's really important we bring people along 
for the ride, one way or another. And I thought it was really--
I was struck and impressed that there is talk in this budget 
about participatory exploration.
    You know, if you think about it, NASA has really pioneered 
this whole notion of bringing people along for the ride. You 
know, it really started way back in the Mars Pathfinder days, 
when scientists would be seeing images on Mars at the same time 
people at home were watching them on the Internet. The more we 
bring people along for the ride, the more they're going to be a 
part of this whole process. And that's why I think, you know, 
if we can figure out how to thread the engineering needles that 
Hoot has laid out here--and that's very important, that this is 
a safe way to fly; I don't think anybody in the commercial 
sector would tell you they want to do it in an unsafe manner--
if we can figure out how to do that, it portends tremendous 
opportunities for a lot of people to go to space. We've had 500 
people go to space since it all began; two of you are in the 
room here. And I wish I had had my opportunity, as well. We 
should be sending 500 people a month. And for NASA to figure a 
way to get out of the way in low-Earth orbit and allow this 
industry to thrive, I think we'll enthuse the public in ways we 
can't imagine.
    I remember being out there to cover that X PRIZE, back in 
2004--October of 2004. It was positively electric in the 
atmosphere out there, because even though it was a suborbital 
hop, something we did in 1961 with Alan Shepard, it was just a 
rank civilian doing it. You don't need the right stuff. And I 
think if NASA can make that happen, make it possible for more 
people to go, and bring people along for the ride in other 
ways, I think they'll recapture that connection to the public.
    Senator Nelson. Deep down, I believe that the public has a 
yearning for space travel by humans, because it is our nature, 
as a people. We are explorers. We are adventurers. We've always 
had a frontier. Along the way, space travel has become ho-hum 
to the public. Why the disconnect?
    Mr. O'Brien. Well, I think, because people couldn't go, or 
they had the feeling they couldn't be a part of it in any 
meaningful way, without being number one at Top Gun school. You 
know, I guess, when you look at the previous frontiers, anybody 
could get in a covered wagon and head West, right? This is a 
different kind of frontier. And for a long time, rightly so, it 
was the bastion of a very elite, exclusive club of people who 
got to go. Well, that's got to change. We're at the point now 
where we can change that, and NASA can help enable that change, 
if it decides to do so; and this budget is all about that.
    So, you know, I think there are a lot of pitfalls here, and 
we're talking about a lot of unproven things. And we've been 
talking about a robust commercial sector for as long as I've 
been covering space, but this is the first time I've seen NASA, 
in a meaningful way, put some bets down in this area, and place 
some investments in a way that may open up this frontier to 
more people.
    Senator Nelson. So, you don't think that these bets are 
necessarily bad, that the commercial boys will be able to 
produce?
    Mr. O'Brien. Well, I'm not an engineer; I'm a history 
major. I just play a scientist on TV, or actually on the Web 
now. But, no, I can't assess the engineering aspects of it. My 
sense of being a student of all of this is that we're very 
close to making this a possibility. And it's not something that 
this industry can do entirely on its own; there's not a 
business model that stands on its own yet.
    But, if you go back to the origins of NASA--the NACA--what 
did it do? It fostered technology and it shoved it out into the 
commercial sector. I think it's time to--for NASA to get back 
to that NACA mentality here a little bit, at least as far as it 
goes in low-Earth orbit. I'm not talking about commercial trips 
to Mars; I think that's where NASA should be, and that's where 
the technology push should be, and that's where--this budget 
recognizes that fact. Enabling the technology to go way beyond 
low-Earth orbit is what NASA should be doing. Getting out of 
the way of low-Earth orbit and helping these commercial players 
make it possible for lots of other people to go there is 
exactly what should be happening right now to keep NASA engaged 
and vital.
    Senator Nelson. You've got as good a sense of the American 
public's feelings as anyone. If the President said, ``We're 
going to go to Mars,'' and he laid out a vision, how do you 
think the American public would respond?
    Mr. O'Brien. Well, I can imagine it would be an interesting 
discussion, in this time we live in, with the budgetary 
constraints that we're all dealing with, and with the economy 
the way it is. But, John F. Kennedy made his similar 
announcement; the economy wasn't so great, by my read of 
history. So, I think a broad vision, if it's supported in the 
context of enabling technologies, inspiring kids, and 
maintaining our competitiveness, keeping us, technologically, 
the leaders of the world. In all that context, I do think it 
would be supported, but it has to be laid out in those terms.
    Senator Nelson. Mr. Snyder, of course we talked about how 
Constellation has been canceled in this program, and we've 
talked a bit about how the NASA budget is increased by a fairly 
substantial amount. In the first year, however, it's de 
minimis; it's $6 billion over 5 years with about a percent and 
a half in the first year, but there is the renewed commitment 
to technology development. Can you give us your views about how 
these changes affect the overall number of jobs supported by 
NASA and the workforce distribution across different NASA 
centers?
    Mr. Snyder. I think that's the real question, Senator. What 
we are thinking is, we all know how long it takes to change 
contracts, to change directions, to get all these--the people 
that you need to do that work in place. And, given the fact 
that we are 7 months away from the end of those programs, many 
of us are going to have no choice but to disperse, to go off 
into other industries, to go potentially to other states, to 
other locations, to do what we need to do to support our 
families. Now, ultimately, eventually those contracts will be 
in place. Will people necessarily be able to, or want to, jump 
ship back to NASA? I don't think so, because they're going to 
be--a feeling of being burned, of it being unstable, and all 
those factors that will go into it. And so, you are looking at 
a net loss--significant net loss of experience that I do not 
think is going to be easily reestablished.
    Senator Nelson. As I have shared privately with various 
people in the government, including NASA, about trying to take 
care of the workforce with additional work, such as an emphasis 
in this budget on research and development, it is my hope that 
you could see, in part of this workforce transition, that there 
is a specific plan put in place by NASA for that transition so 
that those areas that are hard hit by the retirement of the 
Shuttle and the cancellation of Constellation would have a 
softer landing. If I sense correctly that the Congress is at 
least going to make a stab at--don't call it Constellation--
call it the continuation, as Captain Gibson has, of testing of 
test rockets that would lead us in the R&D process of 
developing a heavy-lift vehicle and the capsule to go do what 
NASA can do best, which is explore the heavens, then that, of 
course, will be some amelioration of the jobs and would give 
some part of your workforce that you're referring to some hope. 
You want to comment on that?
    Mr. Snyder. I think it would. But, even if we continued 
what has been referred to as the ``program of record,'' I think 
we are still looking at a significant strategic mistake in 
shutting down the Space Shuttle before we need to. The Space 
Station is up there now. We are relying on the Russians for, 
you know, some unspecified amount of time. You heard General 
Bolden here today say that he wants redundant access. As soon 
as we stand down that fleet, that redundant access is gone and 
it's a foreign monopoly now at this point. The Shuttle is the 
most capable vehicle that we have ever had. I challenge anybody 
who will stand up and say that it is unsafe or use other more 
colorful analogies to describe it. Clearly, they don't know 
exactly what we do day-in, day-out to make sure that that 
fleet--every mission is as safe as it possibly can be.
    I think commercial space is ultimately going to be capable 
of it, but, for the sake of the Space Station, all that money 
that we have spent on getting it up there, that we can't just 
walk away from it until we know that we're going to be able to 
support it.
    If you look at what happened to the Space Station during 
the Columbia return-to-flight phase, we went from three crew to 
two crew. We did mainly maintenance. We did just what we had to 
do to get--to keep the Station operational. Today, that Station 
has five or six people on board. It has got many more labs, and 
much more complex. And yes, we have our ATVs and the HTVs from 
our international partners, but those were always meant to be 
in support of the orbiter. So, I cannot logically see how, if 
we get the orbiter out of the loop--the main cog out of the 
loop--that we just think that everything is going to be fine.
    Ultimately, like I said, those commercial people could--the 
providers could probably get there, but until that time, I 
don't see that it makes sense to retire Shuttle. With the 
HLVs--the potential HLV--clearly, keep the Shuttle going, there 
is some synergies there that could certainly help ultimately 
drive down your cost of your HLV, as well as, potentially, the 
cost of your Shuttle program, because you could draw off of 
those and off of that workforce.
    Senator Nelson. Mr. Young, you've been Vice Chairman of the 
Space Studies Board. Can you explain how NASA has used the 
results of the Decadal Surveys to determine their priorities?
    Mr. Young. It's actually quite a--I think, quite an 
impressive process, watching it work. If I can give just a tad 
of background, it's probably a year and a half of effort by a 
large number of people in the scientific community that go into 
producing a Decadal Survey. So, it's well thought out, well 
debated, and highly credible when it's finished. I think NASA--
and I'll also say the Congress and the OMB, I believe, have 
significant--based on experience, have significant confidence 
in the Decadal Surveys. And NASA today--Administrator Bolden, 
I've heard say it clearly; Ed Weiler, who runs the Space 
Program; has a lot of experience; commented--they look at it as 
the basis for the science program that NASA and the country 
does today.
    So, we really have a very comprehensive process that I 
think we should be very proud of, and the net result is that we 
really do do things that are the absolute best of the options 
that are out there, which is the reason that we make 
considerable progress on understanding both the Earth, our 
solar system, and the universe.
    Senator Nelson. You have been Chairman of the independent 
review team that looked at the NPOESS program. This is a 
program between several agencies. Now, the Administration's new 
plan would greatly increase NASA's role. What's your reading of 
the Administration's recent restructuring of the NPOESS 
program?
    Mr. Young. It's extraordinarily better than status quo. And 
though we probably went farther in our recommendations, I think 
it's time to get on with the program, and I would strongly 
recommend support for the restructured program.
    Senator Nelson. Well, we have had a good hearing. This is 
the first step on a journey of many, many steps.
    And we will keep the record open for 2 weeks for Senators 
to submit questions for the record.
    Thank you all for your participation. It has been 
excellent.
    And the meeting is adjourned.
    [Whereupon, at 4:45 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Thank you again to all of today's witnesses for their 
participation. I know this is Administrator Bolden's first time 
testifying before the Committee since his confirmation and I look 
forward to his testimony.
    This afternoon's topic is the President's FY 2011 budget proposal 
for NASA. At a time when many agencies are seeing their budgets 
decrease, the President is proposing an additional $300 million for 
NASA next year, building into an increase of $6 billion over the next 5 
years.
    Significant investments in science, technology, aeronautics, and 
education are enormously important. They are a foundation for our 
future. However, I am going to be looking at this proposal very 
carefully and will expect strong leadership and financial 
accountability from the Administrator, the Chief Financial Officer, and 
NASA's Inspector General.
    I have been critical of NASA's financial and program management in 
the past. And, in these extremely tough budget times, this proposed 
budget increase requires even more diligence and certainly, more 
oversight.
    In addition to outlining the Administration's plans for the entire 
budget request for the upcoming Fiscal Year, this proposal also 
provides a long-awaited response to the options presented by the 
Augustine Commission for human space exploration.
    To say that there has been some ``interest'' in this decision is an 
understatement. As the sole authorizing committee for NASA in the 
Senate, we will be paying very close attention to that discussion as we 
move forward with NASA's authorization this year.
    I am pleased to see an increase in the requested funding for 
aeronautics research, especially at a time when jobs are this Nation's 
top priority. The aerospace industry is one of the few remaining 
manufacturing industries that continue to be a major U.S. exporter.
    However, I am troubled by the significant decrease in funding for 
the Experimental Program to Stimulate Competitive Research (EPSCOR). 
EPSCOR helps states establish academic research efforts to contribute 
to economic development. That is why Congress went above and beyond the 
President's request last Fiscal Year, to make absolutely clear just how 
important this program is. At a time when jobs have never been more 
important, it seems like a bad idea to cut funding for a program that 
supports quality, high-tech jobs.
    I realize that this budget proposal represents a significant change 
in direction for the agency. And I am encouraged by certain elements, 
including the agency's rededication to science missions.
    But I also know that there is a lot of unease, particularly when it 
comes to the proposed plans for human spaceflight. I firmly believe 
this is a turning point, an incredible opportunity for Congress and the 
general public to reexamine what we want out of this agency. And that 
is exactly what I intend to do as the Commerce Committee moves forward 
with a reauthorization.
                                 ______
                                 
  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Mr. Chairman and Ranking Member Vitter, I appreciate your 
subcommittee holding this very important hearing on NASA's Fiscal Year 
(FY) 2011 Budget Request. I join you in welcoming General Charles 
Bolden, NASA's new Administrator, and the excellent panel of witnesses 
who will follow him:

  <bullet> Captain Robert ``Hoot'' Gibson, whose distinguished career 
        at NASA as a space shuttle pilot and commander included 
        commanding STS-61C, the mission that included as crew members 
        both General Bolden, as the Pilot, and the Subcommittee 
        Chairman as a Payload Specialist in January 1986;

  <bullet> Mr. Miles O'Brien, who for many years was CNN's eyes and 
        ears on the space program, and I understand was eager to be the 
        first Journalist in Space--once Walter Cronkite became 
        ineligible to fly;

  <bullet> Mr. Tom Young, whose distinguished first career included 
        management of a major aerospace corporation, and his second 
        ``career'' in so-called retirement has included serving on the 
        Space Studies Board as well as leading or participating in a 
        great many independent space-related study panels and advisory 
        groups; and

  <bullet> Mr. Michael Snyder, a constituent of mine in Houston, and a 
        fine example of the highly skilled and dedicated workforce that 
        functions as the real backbone of our Nation's space endeavors. 
        I am especially grateful that Mr. Snyder has chosen to come 
        today at his own personal expense to give us insights into the 
        workforce and the potential impacts of the Budget Request from 
        the perspective of the ``troops in the trenches,'' whom we 
        rarely have the opportunity to hear from.

    This hearing begins the Commerce Committee's consideration of the 
President's FY 2011 Budget Request, as we undertake our responsibility 
to establish the policies and authorize the funds necessary to ensure 
the United States maintains its leadership in space exploration. Our 
work is particularly vital this year, as it is critical that the 
Congress examine closely the very underpinnings of the proposed NASA 
budget request, which I believe, if accepted and supported by the 
Congress in its present form, would spell the end of our Nation's 
leadership in space exploration. That would certainly be the case in 
the area of human spaceflight capability.
    Since the release of the FY 2010 Budget Request last year, the 
future of human space flight programs has been in question. As part of 
that request, the Administration announced it would establish an 
independent review panel, chaired by my good friend Mr. Norman 
Augustine, to review U.S. Human Space Flight Plans and provide options 
for how those programs should proceed in the future.
    The Augustine Panel completed its review in late August of last 
year, and released its Summary Report in September. Shortly thereafter, 
this subcommittee held a hearing on the report with Mr. Augustine 
appearing as the sole witness. Since the release of the full report in 
September, we have all been waiting for the Administration's response.
    The Augustine Panel provided a total of seven approaches that could 
be taken to ensure America's continued leadership in space--to 
establish a space program ``worthy of a great nation,'' as suggested by 
the title of their final report. None of those options leapt out as the 
obvious, consensus answer to the mix of vehicle development options and 
strategies necessary to meet the challenges of the next generation of 
human spaceflight. There was, however, a clear consensus on two 
important points.
    First, the Panel found that, without a significant increase in the 
total amount of funding made available to NASA, none of the options 
presented could be expected to succeed--including the current plans and 
programs for developing the Ares I and Ares V launch vehicles and the 
Orion Crew Exploration Vehicle. Second, the Panel recommended that a 
decision be made to formally extend U.S. plans to operate and utilize 
the International Space Station (ISS) through at least the year 2020.
    The Panel's key conclusions underscored what we in the authorizing 
committees have been saying for the past 5 years, and which formed the 
basis for the funding levels and directives that we authorized in both 
our 2005 and 2008 NASA Authorization Acts. Our directives would have 
led to a more timely and successful level of development for the 
vehicles to replace the space shuttle systems, and would have ensured 
that NASA allow operations of ISS through at least 2020.
    I remind my colleagues that we imposed these requirements because 
up to that point, NASA's internal planning--and budget guidance from 
the Office of Management and Budget--was to cease operations aboard the 
space station in 2015, just 5 years after its assembly and outfitting 
would finally be completed by the remaining Space Shuttle flights.
    Unfortunately, the FY 2011 Budget Request does not provide the 
means to ensure that the extension and full utilization of the Space 
Station can be realized. We are already planning to fly 10 fewer 
missions in completing the Space Station than had been planned in 2005. 
As a result, 10 flights' worth of flight-ready payloads--averaging 
between 40,000 to 50,000 pounds per flight--were essentially relegated 
to storage warehouses where most of them remain today, ready to fly, 
ready to use, but with no guaranteed ``ticket to ride'' to be of any 
use to the station. What is most important to remember, is that the 
decisions about which instruments and equipment to swap into the 
remaining flights were based on the internal assumption of the need to 
support the ISS through 2015--not through 2020.
    The result of this is that we do not know how many, or which, of 
those ``grounded payload'' items might actually be needed in order to 
ensure the station can be supported and maintained safely and reliably 
until 2020. Not only that, we do not know which, or how many, of these 
payloads are simply too large or too heavy to be carried to orbit by 
any existing vehicle other than the Space Shuttle. And finally, we do 
not know what additional items might need to be ordered, manufactured 
and delivered in the future, or what launch vehicle capacity will be 
needed to deliver them to the station. This is simply not the way a 
great nation should conduct its civil space program. This is not the 
way to ensure that a decision and pronouncement to continue operations 
through 2020 will not become an empty gesture due to the deterioration, 
damage, or failure of equipment and systems vital to providing the 
oxygen, water, power to make the ISS habitable and to support 
scientific research.
    I am also deeply troubled about the Administration's proposal to 
simply cancel the Constellation programs of Ares I, the low-Earth orbit 
crew launch vehicle, the Ares V Heavy Lift vehicle for enabling flights 
beyond low-Earth orbit, and the Orion Crew Exploration capsule to carry 
the crews for both of those missions. The proposed budget request 
offers a completely different approach, which is essentially to place 
all of this country's human spaceflight capability in the hands of 
commercially-developed crew launch systems, which are not yet defined 
and for which no real design requirements, development milestones, or 
even approximate cost estimates are provided.
    There also appears to have been little thought given to how we 
might leverage the $9 billion already spent on the Constellation 
vehicles in developing an alternative government-operated space 
transportation system to ensure we have the ability to take personnel 
into space, should those commercial efforts not succeed, or in case 
they are delayed. I believe that is irresponsible and unworthy of this 
Nation's historical leadership in space.
    I have been, and continue to be a supporter of the current COTS 
(Commercial Orbital Transportation Systems) activities being pursued 
with SpaceX and Orbital Sciences Corporation for cargo delivery 
services for the Space Station. But, until those efforts are proven to 
be successful, we have no business investing large amounts of 
taxpayers' dollars to begin active development of crew-carrying 
commercial vehicles, especially when we have no assurance that the 
government will not end up being the only customer for those launch 
services.
    Instead of sending up a white flag for our Nation's premiere 
science agency, we should embrace efforts to close the gap in U.S. 
human space flight. If not, we must face the reality that we will be 
totally dependent on Russia, far from our strongest ally, for access to 
space until the next generation of vehicle is developed. Not only would 
we be turning our backs on 40 years of American space superiority, we 
would be giving up vital national security and economic interests to 
other nations that are eager to exploit this situation. I am simply not 
prepared to allow the United States to lose its edge in this critical 
area. That is why I have drafted, and will introduce, a comprehensive 
bill to address America's human space flight programs. My bill would 
allow us to reach full utilization of the space station, provide for 
the Shuttle to continue operations if necessary to bring essential 
equipment to the station to reach a 2020 service date, and mitigate the 
need for our Nation to rely on others to provide access to space for 
our astronauts corps and researchers.
    I do want to acknowledge some good news in the FY 2011 Budget 
Request, which is that the Obama Administration agrees with the need to 
continue supporting the Space Station to at least 2020, and to expand 
and increase its utilization for research. That is very welcome news. 
But my earlier concerns are very significant examples of how Obama 
Administration appears to have ignored the recommendations of the 
Augustine Panel. Therefore, I am pleased that we will begin examining 
these issues today, and I commend the Chairman and Ranking Member of 
the Subcommittee for their leadership. I look forward to the testimony 
of the witnesses and the discussions with the Subcommittee.
    Thank you.

                                  <all>

</pre></body></html>
